<html>
<title> - IMPACTS OF CLIMATE CHANGE TO NATIONAL PARKS</title>
<body><pre>[Senate Hearing 111-239]
[From the U.S. Government Publishing Office]


 
                                                        S. Hrg. 111-239

                       IMPACTS OF CLIMATE CHANGE 
                           TO NATIONAL PARKS
=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

RECEIVE TESTIMONY ON THE CURRENT AND EXPECTED IMPACTS OF CLIMATE CHANGE 
                  ON UNITS OF THE NATIONAL PARK SYSTEM
                               __________

                            OCTOBER 28, 2009




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                       Printed for the use of the
               Committee on Energy and Natural Resources

                              __________

                        U.S. GOVERNMENT PRINTING OFFICE
54-563 PDF                   WASHINGTON: 2010
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
(202) 512�091800 Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 
20402�090001




               COMMITTEE ON ENERGY AND NATURAL RESOURCES




                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado Chairman

BYRON L. DORGAN, North Dakota        RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          SAM BROWNBACK, Kansas
BLANCHE L. LINCOLN, Arkansas         JOHN McCAIN, Arizona
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   BOB CORKER, Tennessee
DEBBIE STABENOW, Michigan

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burr, Hon. Richard, U.S. Senator From North Carolina.............     2
Jarvis, Jonathan B., Director, National Park Service, Department 
  of the Interior................................................     3
McMahan, Iliff, Jr., Mayor, Cocke County, Newport, TN............    25
Noss, Reed F., Ph.D., Davis-Shine Professor of Conservation 
  Biology, University of Central Florida, Orlando, FL............    29
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1
Williams, Steven, Ph.D., President, Wildlife Management 
  Institute, Gardners, PA........................................    19

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    43

 
                       IMPACTS OF CLIMATE CHANGE 
                           TO NATIONAL PARKS

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2009

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. The Subcommittee on National Parks will come 
to order.
    Good afternoon. Welcome to all of you. This is a hearing I 
have been looking forward to holding for a number of months.
    I want to start with an opening statement. I will turn to 
the ranking member for his opening statement, and then we will 
turn to the Director of the National Park Service for his 
comments.
    The purpose of today's hearing is to consider the impacts 
of climate change on the National Park System. Understanding 
the challenges of climate change and how they are affecting the 
National Park Service is an issue that is important to me and 
certainly is one of the major management challenges facing the 
National Park Service.
    Last August, the subcommittee held a hearing in Estes Park, 
Colorado to better understand the impacts of climate change on 
national parks in Colorado. I was pleased that Senator McCain 
was able to join me at that hearing, and we had a very good 
discussion on the climate-related challenges facing Rocky 
Mountain National Park and other parks in Colorado. I hope to 
use today's hearing to continue to build upon that discussion 
by broadening the scope to look at climate-related impacts to 
all units of the National Park System throughout the country.
    The recent Ken Burns' PBS documentary on national parks 
reminded millions of Americans of the incredible and varied 
resources that are conserved and protected in the National Park 
System. As the documentary showed, it took incredible vision to 
set aside these lands during a period of development, 
expansion, and growth in our country. Despite the challenges 
that were overcome to protect these areas, they now face new 
threats to their long-term viability, and I am not sure of any 
long-term management issue more significant than climate 
change.
    The climate issue is unique in that it is sweeping and 
unprecedented in scope. While many of our parks are relatively 
pristine, they are not immune to the rising temperatures that 
threaten fish and wildlife habitat, the increase in invasive 
species that displace native plant life, and the loss of 
irreplaceable artifacts and archeology that may be submerged 
with rising sea levels. While climate impacts can vary across 
individual regions and landscapes, it is likely that many parks 
will see drier summers, fewer snowfalls, and more intense 
wildfires. Temperatures are expected to rise most dramatically 
in higher latitudes, affecting high alpine ecosystems and 
habitat.
    To a large degree, our Nation's parks are the canary in the 
coal mine when it comes to the on-the-ground changes due to the 
impacts of a warming climate. These impacts are real, 
significant, and can have lasting effects on these resources 
and our ability to protect them.
    Senator McCain and I took a brief tour of Rocky Mountain 
National Park before the August hearing to look at places where 
climate change impacts are occurring. Unfortunately, the sorts 
of things we saw--such as trees killed by a bark beetle 
epidemic that has been exacerbated by a warming climate--are 
being felt throughout the National Park System.
    As an avid park supporter, I want to ensure that our 
national treasures are understood and protected for generations 
of Americans to come. I am looking forward to learning about 
the impacts and the challenges we face in managing the park 
system in light of the challenges posed by climate change.
    As I mentioned earlier, in a few minutes we will hear from 
the new Director--congratulations again, Director Jarvis--of 
the National Park Service who has a long history of working on 
this issue, and we also have a distinguished panel of 
witnesses, each of whom brings a unique perspective to this 
issue.
    At this time, I would like to recognize my friend and the 
ranking member of the subcommittee, the Senator from North 
Carolina, Mr. Burr.

    STATEMENT OF HON. RICHARD BURR, U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Burr. Mr. Chairman, I thank you.
    Mr. Jarvis, I welcome you, as I will our other panelists.
    I want to thank you for holding this subcommittee hearing. 
It has been about 3 months since we have had the opportunity to 
have a hearing and address the issue of the changing climate as 
it relates to our national parks.
    Our parks provide Americans with an excellent source of 
solitude, wilderness, and a glimpse in our Nation's history. I 
agree with you, the PBS special that was run--I have contacted 
PBS and asked that 99 copies be delivered to other members' 
offices so that those that did not have an opportunity to see 
it will have that opportunity.
    We must be good stewards of these national treasures so 
that they are preserved for the enjoyment of future 
generations.
    I also hope that my colleagues, both sides of the Congress, 
will allow science and science alone to drive our policies in 
the future and, more importantly, our investments as it relates 
to the efforts on climate change.
    I look forward to the witnesses today, what they provide as 
a snapshot at this point in time. I believe that policy of this 
significance is snapshots over a continual period of time as we 
see changes that we might not have anticipated or changes that 
alter what in fact we anticipated.
    I also look forward to hearing from the director today 
specifically on how climate affects our parks, and we might 
sneak in some other questions since he has come into this 
position.
    I also want to thank the chairman for the time he has 
provided.
    Senator Udall. Thank you, Senator Burr.
    Without further ado, let us move to Director Jarvis. Again, 
welcome. It is a treat to have you here and we look forward to 
your testimony. then we will direct some questions your way 
when you are finished.

   STATEMENT OF JONATHAN B. JARVIS, DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Jarvis. Thank you, Chairman. Thank you, members of the 
committee. I greatly appreciate this opportunity to come to 
this body and speak on this major issue of climate change.
    For nearly a century, the National Park Service has been 
charged with managing the parks, as mandated by the Organic Act 
of 1916. In that history, as well articulated by Mr. Burns, we 
have faced a lot of challenges, but the challenge of climate 
change is probably one of our greatest. It is a challenge to 
maintaining America's natural and cultural heritage unimpaired 
for future generations.
    Secretary Salazar has prioritized the issue of climate 
change within the Department of the Interior and recently 
issued a secretarial order on September 14, 2009, establishing 
a climate change strategy to integrate the work of the various 
Department of the Interior bureaus to mitigate and adapt to the 
effects that we are already seeing and those that we anticipate 
from climate change.
    The National Park Service's climate change strategy will 
complement the secretarial order by developing a focus on sort 
of three areas. Collaboration at the landscape scale, amongst 
all of the bureaus, particularly to derive appropriate 
scientific information and to develop adaptation strategies. 
There will be a mitigation strategy as well that is developed 
through and incorporated into all of our planning processes and 
a communications strategy that relates to both communication 
internally and with the public about the climate change effects 
that we are seeing.
    The management implications for protecting species, 
biological communities, our visitor facilities, and cultural 
resources within park boundaries in a rapidly changing climate 
are very complex and frankly without precedent. We are already 
documenting accelerated melting of mountain glaciers in places 
like Glacier National Park and the North Cascades and reduced 
snowpacks and changing in the timing of stream flows that 
affect terrestrial and aquatic communities in our mountain 
parks. These have direct effects on species such as wolverine 
and lynx which depend on winter snow and icepacks.
    The coastal parks are already seeing changes to their 
shorelines and their boundaries and expect even greater as sea 
levels rise. Marine ecosystems already show signs of coral 
bleaching and disease caused by increased sea surface 
temperatures that have resulted in the loss of more than 50 
percent of the reef-building corals in the Virgin Island parks 
since 2005.
    Fire ignitions are occurring both earlier and later in the 
seasons and now fires in some places have increased in both 
frequency and intensity, changing native and animal plant 
communities and contributing to the spread of exotic species.
    Cultural resources are often, I think, forgotten in this 
process are also going to be affected by sea level rise and 
climate change. For instance, archeological sites and historic 
structures are being already damaged by these effects at Fort 
Jefferson, Dry Tortugas, and at Jamestown in Colonial National 
Historic Park.
    As I mentioned, we are developing a strategic framework 
that I will detail briefly but am open to any questions in 
terms of mitigation, adaptation, and communication.
    First in the area of mitigation, the NPS is leading by 
example by reducing our own park carbon footprint and promoting 
sustainable operational practices. We have set a goal in the 
National Park Service to exceed the Federal requirements for 
reducing total energy use in NPS operations, and we have 
established very specific goals to reach by 2016, which is the 
100th anniversary of the National Park System. We want to 
establish a leadership role in sustainability and meeting and 
exceeding the Department of the Interior greenhouse gas 
emission goals. We already have programs like the Climate 
Friendly Parks Program and the Energy SmartPARKS Program as key 
ways that NPS can use to reduce greenhouse gases through 
emission inventories, climate action planning, energy 
conservation, and renewable energy.
    There are already activities in these fields. In the 
Pacific West, where I was the regional director for the last 7 
years, we have heavily implemented the Climate Friendly Parks 
Program and we are now generating over 4 percent of our own 
energy from renewables.
    Today the U.S. Department of Energy is honoring two NPS 
facilities in their annual Federal Energy and Water Management 
Awards, one of which is the visitors center at Lassen Volcanic 
National Park which is receiving an award for achieving the 
leadership in energy and environmental design, or LEED, 
certification at platinum. That is the highest level that can 
be achieved. This is the first year-around visitor center in 
the National Park System to achieve a LEED platinum. It is also 
the first Federal building in the State of California to 
achieve LEED platinum. The Blue Ridge Parkway Destination 
Center, which opened in 2007, achieved a LEED certification of 
gold for its green roofing and low-flow plumbing.
    So all of these kinds of efforts are great because they 
reduce our footprint, but they are also opportunities to 
demonstrate sustainability to the public.
    We have 84 photovoltaic solar panels now operational on and 
around the Grand Canyon visitor center, which reduces 30 
percent of their energy demand for that facility.
    The second piece is adaptation, and in this case the broad 
impacts of climate change require us to begin to think and act 
at the landscape scale. The NPS will fully participate in the 
Department of the Interior-proposed landscape conservation 
cooperatives and the regional climate change response centers 
that will include partners like universities, tribes, States, 
other Federal agencies, private landholders, and all the other 
partners out there that have a stake in the changes that we are 
going to see at the landscape scale.
    These are integral to providing the key scientific and 
technical support to managers and to partners for developing 
and implementing conservation strategies at the landscape 
scale. We hope to use new technologies and new strategies to 
help our parks be more resilient to the changes we expect to 
see.
    The third leg of the stool is communication. With 275 
million visitors to our national parks annually, we can serve 
as models of sustainability, adaptation, and as platforms to 
effectively communicate information about the effects of 
climate change. Information that parks provide can be a 
catalyst for visitors to do their own part to assist in energy 
conservation and the effects of climate.
    The National Park Service, in conjunction with other 
Federal agencies, has developed a Climate Change, Wildlife and 
Wildlands Toolkit that interpreters in parks, zoos, aquariums, 
science centers, and outdoor classrooms across the country can 
use to help us talk about climate change.
    We are also in parks making climate change information 
available through brochures, wayside exhibits, interpretive 
programs, and handouts. Information is also available on our 
Web site.
    This administration has embarked on an ambitious and much-
needed strategy to reduce the generation of greenhouse gases 
and our dependence on foreign oil. The National Park Service 
supports this effort and is committed to working with 
Department of the Interior and other agencies to ensure that 
this is done in a way that protects our national parks and our 
natural and cultural heritage.
    Renewable energy development is not without its 
environmental impacts. We must make sure that these are the 
right projects, they are being permitted in the right 
locations, and they are done in the right way. The National 
Park Service is committed to engaging actively with all the 
agencies that are involved in this for proposed renewable 
energy projects near or adjacent to national parks.
    In conclusion, our efforts to date are significant but 
there is much work to be done. Our actions will require 
involving interagency and intra-agency cooperation and 
leadership to build on the collective knowledge and to create 
solutions for protecting resources and resource values and 
providing for appropriate visitor enjoyment. Parks are 
reference markers upon which we can measure the effects of 
climate change. So one of our most precious values is our 
ability to teach us about ourselves and how we relate to the 
natural world. This important role may prove invaluable in the 
near future as we strive to understand and adapt to a changing 
climate.
    Thank you for this opportunity to present this testimony, 
and I am ready for any questions you might have.
    [The prepared statement of Mr. Jarvis follows:]
   Prepared Statement of Jonathan B. Jarvis, Director, National Park 
                  Service, Department of the Interior
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present testimony on the impacts of climate change to 
National Parks. For nearly a century, the National Park Service (NPS) 
has been charged with managing the parks within the breadth and 
complexity of our mission as mandated by the Organic Act of 1916. While 
the NPS has faced daunting challenges to effective natural and cultural 
resource management since its inception, park managers are currently 
facing an increasing array of dynamic issues and unprecedented 
challenges, more than any encountered in the history of the National 
Park System. Climate change is our newest, greatest challenge to 
maintaining America's natural and cultural heritage unimpaired for 
future generations.
    Secretary Salazar has prioritized the issue of climate change 
within the Department of the Interior (DOI). Secretarial Order No. 3289 
of September 14, 2009, established a climate change strategy to 
integrate the work of each DOI bureau to mitigate and adapt to the 
effects of climate change in the pursuit of their respective missions. 
Recently, DOI met with Congressional staff to describe this new 
approach to climate change adaptation and mitigation activities.
    The NPS Climate Change Strategy will complement the Secretarial 
Order. We are holding scenario planning workshops, assessing the 
vulnerability of facilities and cultural and natural resources, 
acquiring data and implementing a climate friendly parks program. Our 
climate change response steering committee is developing a strategic 
plan that will be presented to me and my NPS National Leadership 
Council. This plan will include action items for responding to the 
Secretarial Order and will focus on collaboration at the regional and 
landscape level to develop scientific information and adaptation 
strategies; mitigate greenhouse gases; incorporate climate change into 
park planning processes; and communicate internally and with the public 
about climate change issues.
    The National Park Service Cooperative Ecosystem Studies Units, 
Research Learning Centers, and Inventory and Monitoring networks have 
been designed to link science to management issues and they will be 
tapped to ensure that NPS needs and interests are addressed through the 
Regional Climate Change Response Centers and Landscape Conservation 
Cooperatives. Finally, with respect to the mitigation elements of the 
Secretarial Order, the NPS has taken a leadership role through the 
Climate Friendly Parks Program.
    Since implementation of the Natural Resource Challenge nearly a 
decade ago, the NPS has been increasing its science capacity and the 
professional expertise of natural resource managers. However, there is 
still much to be done. Earlier this month, I announced the appointment 
of our first ever science advisor to the director. This new and 
important position will help build on existing NPS science programs and 
advance the role of science within our bureau as we meet the challenges 
and opportunities of the 21st century.
    DOI and NPS are rising to this challenge, and today my testimony 
will focus on our observations of the effects and potential future 
changes related to climate change in national park units. I will also 
discuss the NPS actions and programs underway that will prepare us for 
the current and anticipated impacts from climate change.
          the effects of climate change in national park units
    In October 2009, the Rocky Mountain Climate Organization and the 
Natural Resource Defense Council published a report entitled National 
Parks in Peril. The Threats of Climate Disruption. The report cited 
human disruption of climate as the ``greatest threat ever to our 
national parks'' and identified eleven types of risks our parks are 
facing. These risks include loss of ice and snow; loss of water; higher 
seas and stronger coastal storms; more downpours and flooding; loss of 
plant communities; loss of wildlife; loss of historical and cultural 
resources; intolerable heat; loss of fishing; and more air pollution. 
This report shows broad public concern over the impacts of climate 
change to parks.
    We have documented accelerated melting of mountain glaciers in 
national parks such as Glacier and North Cascades, disappearance of 
perennial snowfields in Alaska parks, reduced snowpacks and changes in 
the timing and amount of stream flow that affect terrestrial and 
aquatic communities in mountain parks. These impacts not only affect 
recreational opportunities including cross-country skiing and fishing, 
but the very species that depend upon winter snow and icepacks such as 
the ice worm, wolverine, and lynx.
    Alaskan parks are seeing some of the earliest impacts of possible 
climate change--melting sea ice threatens marine mammals as well as 
coastal communities, thawing permafrost destabilizes buildings, roads, 
and other facilities. Parks such as Yosemite and Great Basin are seeing 
high-elevation species, such as the alpine chipmunk, moving upslope, 
thereby reducing the effective area for their survival as well as those 
species that prey upon them. (Moritz et. al. 2008)
    Coastal parks are a central concern. The NPS manages 74 coastal 
units encompassing more than 5,100 miles of coast and three million 
acres of submerged resources including beaches, wetlands, estuaries, 
coral reefs, and kelp forests. These parks attract more than 75 million 
visitors every year, and generate over $2.5 billion in economic 
benefits to local communities. The U.S. Climate Change Science Program 
Synthesis and Assessment Product 4.1 on Coastal Sensitivity to Sea 
Level Rise (2009) states:

          Critical coastal ecosystems such as wetlands, estuaries, and 
        coral reefs are particularly vulnerable to climate change. Such 
        ecosystems are among the most biologically productive 
        environments in the world.

    Park coastal ecosystems are significant habitats for the production 
and health of recreationally and commercially valuable fish and 
shellfish; they provide important ecosystem services, and offer 
beautiful landscapes for marine recreation and wildlife watching. The 
U.S. government's recently-released landmark report, Climate Change 
Impacts in the United States (2009), identifies a variety of changes 
these ecosystems are forecast to undergo. Such changes in a park 
context may include shoreline and park boundary changes as sea level 
rises. Already observed changes in marine ecosystems include coral 
bleaching and disease caused by increased sea surface temperatures that 
have led to the loss of more than 50 percent of reef-building corals in 
the Virgin Islands park units since 2005 (IPCC 2007, Hoegh-Guldberg 
1999, Buddemeier 2004).
    NPS data indicate that fire ignitions are occurring both earlier 
and later in the season now and the average duration of time that a 
wildfire burns has increased from less than 10 days to more than a 
month. Fires in some places may be increasing in both frequency and 
intensity, changing native plant and animal communities and 
contributing to the spread of invasive exotic species (Westerling et 
al. 2006). Wildland fire frequency and intensity also are impacting 
cultural resources, as hotter fires and our efforts to fight them 
directly damage both surficial and buried archeological sites.
    Because the amount of precipitation stored as snowpack is expected 
to decrease and annual snowmelt is expected to commence earlier in the 
spring in mountain states such as Colorado, the overall expected effect 
will be decreasing volume of water available annually for storage in 
Colorado River basin reservoirs (IPCC 2007). It is also thought that 
there will be increased year-to-year variability in basin hydrologic 
conditions and decreased certainty as to the amount of annual water 
production (Guido 2008 and Knowles et al 2006). Given these expected 
changes and the present allocation of Colorado River Basin water 
resources and the ever-increasing demand for water in the southwest, 
the expected changes will present challenges to both water and park 
resource managers.
    While some impacts from climate change are already measurable, the 
long-range effects of climate disruption on park natural and cultural 
resources, developed infrastructure, and visitor experience are just 
beginning to be understood. The management implications for protecting 
species, biological communities, and physical resources within finite 
land management boundaries in a rapidly changing climate are complex 
and without precedent.
    Cultural resources are also expected to be significantly affected 
by climate change. For example, rising water levels are already 
damaging archeological sites, historic structures, and cultural 
landscapes such as Fort Jefferson in Dry Tortugas National Park 
(Florida), Jamestown in Colonial National Historical Park (Virginia), 
and Ellis Island National Monument and the Statue of Liberty National 
Monument in Upper New York Bay. Sea level rise and storms threaten the 
tangible remains of some of the earliest human occupation sites, dating 
back over 10,000 years, along the west coast, as well as associated 
Native American burial grounds at places like Channel Islands National 
Park and ancient shell middens at George Washington's Birthplace 
National Monument and on the coast of Everglades National Park. 
Decreasing lake levels expose vulnerable archeological resources and 
critical park infrastructure in places like Lake Mead National 
Recreation Area. Our nation's maritime history, including lighthouses 
from Massachusetts to Oregon, historic forts including Fort Jefferson 
and Fort Sumter, and historic coastal communities also face accelerated 
erosion from rising seas and more intense storm surges.
    The focus of the climate change discussion has largely shifted from 
the evidence that climate change is occurring to what we can do about 
it. As stewards of our nation's natural and cultural heritage, we have 
an obligation to act now.
              current climate change actions and programs
    To effectively respond to climate change challenges to parks, NPS 
is working with DOI to undertake a collective and coordinated strategy 
that builds upon and expands existing partnerships such as those 
between NPS, other bureaus, and non-governmental stakeholders. Building 
the capacity to respond to climate change will involve identifying, 
linking, prioritizing, and implementing a range of short and long-term 
activities. NPS's ability to work cooperatively with other federal 
agencies, states, local agencies and the public to address the 
cumulative impacts of climate change on park natural resources was 
greatly improved with the passage of section 301 of the Consolidated 
Natural Resources Act of 2008, which authorizes NPS to spend 
appropriated funds cooperatively on work conducted outside park 
boundaries for the purpose of protecting park natural resources.
    The NPS now is developing a strategic framework for action that 
will detail short and long-term actions in three major areas: 
mitigation, adaptation, and communication. The framework will address 
park, regional and national-level needs and concerns by incorporating 
actions to address the core elements associated with proactive climate 
change impact management--Legal and Policy; Planning; Science; Resource 
Stewardship; Greenhouse Gas Emission and Sustainable Operations; and 
Communication.
    Some of our key actions to date include:

  <bullet> Initiating the Climate Friendly Parks Program in 2003 in 
        conjunction with the Environmental Protection Agency. The 
        program promotes sustainable operations in parks and creates 
        park climate action plans to reduce greenhouse gas emissions. 
        It now involves almost 60 parks.
  <bullet> Utilizing Environmental Management System Plans to track and 
        reduce park environmental impacts and set targets for 
        sustainable park operations.
  <bullet> Hosting or participating in a series of regional and 
        interagency workshops to explore climate change impacts and 
        coping strategies over the past three years.
  <bullet> Adopting an Ocean Park Stewardship Action Plan in 2006 to 
        guide actions to address ocean-related climate change impacts.
  <bullet> Forming a service-wide Climate Change Response Steering 
        Committee to foster communications, provide recommendations, 
        and serve as an advisory body to NPS leadership.

    Successful park approaches to mitigating climate change impacts 
require the very best science, including physical, biological, social, 
and cultural disciplines. Since 1999, NPS has used strategically placed 
Research Learning Centers throughout the country, in addition to the 
Cooperative Ecosystem Studies Units (CESU) Network to collaborate with 
leading research institutions, including universities, NGOs and State 
and federal partners, to provide the necessary science for informing 
sustainable adaptive management of park resources. The 17 CESUs in the 
network cover all regions of the country, with a total of 250 partners 
including 13 federal agencies. The program has been highly successful 
in producing cutting edge collaborative research and providing 
technical assistance and capacity building for the NPS, State and local 
agencies, and other federal and non-governmental partners.
      looking to the future--mitigation, adaptation, communication
    While efforts to date are significant, much work lies ahead to 
address climate change impacts on park resources and visitor enjoyment 
and to respond strategically to those impacts in ways that are 
compatible with park purposes and values. Our actions will necessarily 
involve strong intra-and interagency cooperation and leadership to 
build on collective knowledge and to create new solutions for 
protecting resources and resource values and providing for appropriate 
enjoyment.
                     mitigation--leading by example
    In the area of mitigation, the NPS is leading by example by 
reducing park carbon footprints and promoting sustainable operational 
practices. The NPS has set a goal to significantly exceed the federal 
requirements for reducing total energy use in NPS operations and having 
a portion of park energy come from renewables by 2016, the 100th year 
anniversary of the establishment of the National Park Service. We also 
look forward to taking a leadership role in meeting or exceeding the 
DOI greenhouse gas emission reduction goals developed in response to 
Executive Order 13514 on Federal Leadership in Environmental, Energy, 
and Economic Performance issued October 5, 2009.
    The Climate Friendly Parks Program and the Energy SmartPARKS 
Program are two of the key ways that NPS is mitigating greenhouse gases 
through these areas of emphasis:

  <bullet> Emissions Inventories: Parks quantify and track their 
        emissions and identify specific areas where reductions can be 
        most readily achieved.
  <bullet> Climate Action Planning: Parks use the Climate Leadership in 
        Parks (CLIP) tool to identify carbon reduction goals and 
        actions to follow through on these goals. Almost sixty parks 
        are now in the process of completing these plans.
  <bullet> Energy Conservation: Significant portions of greenhouse gas 
        emissions in parks come from transportation, energy consumption 
        in buildings, and waste management. Mitigation solutions 
        include sustainable design and construction, adaptive ``green'' 
        reuse of historic structures, use of high-mileage and 
        alternative-fuel vehicles, solid waste reduction, and 
        alternative transportation systems that integrate all modes of 
        travel within a park, including land and water-based vehicles.
  <bullet> Renewable Energy: An increasing number of parks are 
        generating energy from renewable sources, such as photovoltaic 
        systems and geothermal heat exchangers. The Energy SmartPARKS 
        program is a partnership with the Department of Energy that is 
        focusing on generating renewable energy and showcasing 
        sustainable energy practices in parks. Currently, NPS-wide, 
        3.8% of energy in parks comes from renewable sources.

    NPS regions are also moving forward with their own climate change 
initiatives. For example, the Pacific West Region (PWR) has a very 
ambitious Climate Change Leadership Initiative that promotes Climate 
Friendly Parks. The overall objective is to support Executive Order 
13423, Strengthening Federal Environmental, Energy, and Transportation 
Management, by setting greenhouse gas targets. The 58 parks in the 
region have set a target of becoming carbon neutral for park operations 
by 2016 and now generate over 4% of their energy from renewable 
sources.
   safeguarding and protecting park resources, structures, and uses--
                 adaptation planning and implementation
    While mitigating the causes of climate change is essential, parks 
must plan now for adapting to the resource and visitor use impacts of 
climate change. Worldwide, national parks and protected areas represent 
the core areas, refugia, and often, habitat and source populations for 
species which disperse nationally and internationally.
    Within North America, declines in native species populations and 
their ability to persist have been observed, and climate change and 
habitat loss and fragmentation are among the factors contributing to 
these declines. Over 800 animal species that occur in national parks 
migrate beyond boundaries through air, water, and over land. Because 
animal species do not detect jurisdictional boundaries, the success of 
recovery programs for imperiled or at-risk species often depends on 
cooperation and collaboration among our nation's governmental agencies, 
non-governmental organizations, private landowners, and the 
international community.
    Given the broad impacts of climate change, management responses to 
such impacts must be coordinated on a landscape-level basis. Enhancing 
scientific expertise within the Service will enable NPS to expand 
formal relationships with partners outside park units who share our 
concerns, and will foster development of cooperative projects to 
further conservation of shared species and their habitats.
    The NPS will fully participate with each of the DOI-proposed 
Landscape Conservation Cooperatives (LCC) and Regional Climate Change 
Response Centers (RCC) including universities, tribes, states, federal 
agencies and other partners and stakeholders. The LCCs and the Regional 
Climate Change Response Centers are integral to climate adaptation 
efforts, providing scientific and technical support to managers and 
partnerships responsible for developing and implementing conservation 
strategies at landscape scales in a changing climate. With these 
partners and others, we will use new technologies and strategies in a 
more unified approach to make parks key participants in continental 
conservation.
    For adaptation planning and implementation, our highest priority is 
to support the ability of species, communities, and ecosystems to 
respond to changing conditions. For example, changes in weather 
patterns, water availability, and wildland fire will stimulate changes 
in the distribution and abundance of plants, animals, and ecological 
communities through both adaptation and migration. NPS actions to build 
resilience and reduce other ecosystem stressors, especially the effects 
of exotic species, will help to reduce the extent or intensity of some 
of the most deleterious impacts on park resources from climate change. 
NPS actions to restore currently degraded natural ecosystems can make 
them more resilient to future effects of climate change. These types of 
resource management activities are already occurring in national parks, 
but will become increasingly important as park management priorities. 
We need to intensify our exotic species control work and subsequent 
ecosystem restoration by developing comprehensive resiliency strategies 
for four initial focus areas: high altitude, high latitude, southwest 
arid lands, and ocean ecosystems. Examples of our current activities 
include the restoration of major ecosystems such as the Everglades; the 
establishment of marine reserves in units of the National Park System; 
removal of invasive exotic animals such as Burmese pythons, feral pigs, 
and goats; and reduction of the abundance and impact of exotic plant 
species.
    A critical component for adaptation planning and implementation 
involves continuing to build our long-term science information and 
ecosystem monitoring (Vital Signs) capacities. The National Park System 
represents a wide range of ecosystems scattered across the nation, and 
therefore, embraces a broad spectrum of diverse natural environments. 
Because of this diversity, parks present tremendous opportunities to 
observe the effects of climate change on known resource conditions that 
park scientists and managers have documented over decades.
    The NPS Inventory and Monitoring program includes 32 networks 
serving more than 270 parks, and data from this program are presently 
being summarized and synthesized to better establish the current 
condition of park resources and to provide a baseline against which to 
better assess and understand future natural resource conditions. 
Inventory and Monitoring networks are strategically positioned to help 
parks acquire the information they need to make informed decisions, to 
employ adaptive management, and to test alternative strategies for 
adapting park resources and visitor uses to the effects of climate 
change.
    In addition to natural resource monitoring and condition 
assessments, we conduct condition assessments of cultural resources and 
ethnographic studies that include information on past and current 
subsistence uses of park natural resources. Information from these 
programs also informs state and other members of landscape-scale 
partnerships and provides valuable site-specific information for use by 
scientists looking at regional and national scale trends.
    Although resource management planning for future decision-making 
must be based on expectations of future conditions, in an era of 
climate change, the future will be characterized by highly 
consequential and unprecedented changes that cannot be forecast with as 
much accuracy and precision as we would like. Consequently, during the 
next ten years the NPS will utilize a scenario planning approach that 
uses the best available science to explore a range of plausible 
``multiple working futures'' and consider appropriate actions within 
each of those possible futures, including changes in park zoning, the 
landscaping of developed park areas with native rather than exotic 
species, and the design or location of buildings and roads and 
infrastructure. Scenario planning is being specifically designed to 
help managers identify policies and actions that will be most effective 
across a range of potential futures and to promote tactical adaptation 
responses that are compatible with the NPS mission and contribute to 
landscape-scale partnerships.
   parks serve as models of sustainability and places to communicate 
                       climate change information
    There is a great need at this time to communicate the complexities 
of climate change and the actions that can be taken. With 275 million 
visits annually, the parks can serve as models of sustainability and 
adaptation and as platforms to effectively communicate information 
about the effects of climate change. Information that parks provide can 
be a catalyst for visitors to do their part for climate friendly parks 
and beyond.
    NPS is instituting a number of efforts to communicate the effects 
of climate change and its impacts to national parks. These include a 
monthly web-based seminar series featuring climate change experts on 
science, communication, and management topics. They also include 
interpretive training using a decision-tree for developing knowledge 
around individual aspects of climate change that will help park rangers 
to frame interpretive programs and answer visitor questions. The NPS, 
in conjunction with other federal agencies, has developed a ``Climate 
Change, Wildlife and Wildlands Toolkit'' that interpreters in parks, 
zoos, aquariums, science centers and outdoor and classroom educators 
across the country may use to talk about climate change. In addition, 
NPS in partnership with the U.S. Fish and Wildlife Service together are 
creating summaries of climate change knowledge for specific 
bioregions--a series of 11 bioregional documents envisioned to date--to 
summarize the current state of knowledge about climate change and 
impacts to protected areas in those bioregions, with a focus on 
national parks and refuges.
    Looking forward, the NPS has a goal of every park having climate 
change information available through brochures, wayside exhibits, 
interpretive programs and handouts, and park websites. The Climate 
Friendly Parks Program has encouraged achieving this goal, and many 
parks, including Point Reyes National Seashore, Glacier National Park, 
Apostle Islands National Lakeshore, Everglades National Park, Dry 
Tortugas National Park, and Kenai Fjords National Park, make climate 
change information readily available to the public. The NPS is 
currently developing and supporting a new and exciting ``Visitor--Do 
Your Part Program'' which will have visitors voluntarily measure and 
reduce their own carbon footprints. In addition, NPS also is exploring 
ways to utilize its national preservation programs, such as 
Preservation Assistance and the National Center for Preservation 
Technology, to develop and disseminate information on sustainability, 
historic preservation, and guidance for adaptive reuse of historic 
buildings.
meeting our nation's renewable energy goals while protecting treasured 
                               landscapes
    The Administration has embarked on an ambitious and much needed 
strategy to reduce the generation of greenhouse gases and our national 
dependence on foreign oil in a way that safeguards our environment. As 
part of that strategy, the Secretary has set specific goals for 
generating renewable energy from the public lands and the outer 
continental shelf, including solar, wind, geothermal, biomass, and 
hydroelectric projects. The Secretary has committed to fast tracking 
the compliance and the development of corridors to carry this energy to 
the areas of greatest demand. He also has made clear that he is 
committed to doing so in a manner that protects the environment, 
including our treasured landscapes.
    The NPS supports this effort, and is committed to working with DOI 
and others to ensure that the siting and permitting of renewable energy 
development, including energy transmission and needed ancillary 
facilities, is done in a way that protects our natural and cultural 
heritage. We definitely need to be ``smart from the start.'' Renewable 
energy development is not without its environmental impacts. We must be 
sure that the right projects are being permitted in the right locations 
and in the right way.
    The NPS is pro-actively engaging other agencies and project 
proponents to resolve concerns associated with proposed renewable 
energy projects adjacent to park boundaries. I will be meeting with my 
counterparts in DOI to further this coordination and collaboration.
                               conclusion
    Our national park units provide environmental baselines to track 
and assess change, and they stand as some of the last vestiges where 
species populations, essential habitats, and ecological components 
function naturally. National parks also serve as core essential 
habitats as well as critical habitats for source populations of 
species. To succeed in the face of climate change, the NPS must lead by 
example in minimizing carbon footprints and promoting sustainable 
operational practices to ensure that intact ecosystem services are 
sustained within and outside of park boundaries.
    One of the most precious values of the national parks is their 
ability to teach us about ourselves and how we relate to the natural 
world. This important role may prove invaluable in the near future as 
we strive to understand and adapt to a changing climate. We must engage 
in an unprecedented level of collaboration and cooperation with other 
agencies and partners to ensure that scientific information is 
collected, analyzed, and applied to better protect resources and 
explain the benefits and necessity of natural and cultural resource 
conservation across the nation and the world.
    Thank you for the opportunity to present this testimony. I am 
pleased to answer any questions members of the committee may have.

    Senator Udall. Thank you, Director Jarvis.
    Let me recognize myself first to begin a round of 
questions.
    As Senator Burr mentioned, we ought to really focus on 
science. I understand that there is a general consensus among 
scientists that park resources are being affected as the result 
of climate change in a wide variety of environments, whether 
they be coastal or alpine or desert, what have you.
    Do you feel that the Park Service has a good handle on 
where these effects are happening and the severity of them? If 
not, what else would you like to see done?
    Mr. Jarvis. First, I agree absolutely that the key to 
developing adaptation strategies and resilience and even 
communicating to the public--we need a very robust science 
program. As you may have heard, I have added to my National 
Park Service staff a science advisor, Dr. Gary Machlis, who is 
here with us today, to serve in that role, to help us 
synthesize and direct both the science we have and to help us 
procure and obtain the science that we need in order to better 
understand this.
    The Department of the Interior is, in cooperation with the 
other bureaus and particularly led by the U.S. Geological 
Survey, going to launch a series of regional climate change 
response centers which are intended to be, for the most part, 
university-based, geographically focused on developing specific 
science, specific research that will help us design our future 
adaptation programs. It is intended to be applied science that 
will really assist our managers. I think the role of Dr. 
Machlis and our organization is to ensure that our managers are 
actually getting the science they need to address these things. 
I think in some areas we have fairly good science, and there 
are a lot of areas we really do not yet understand what these 
effects may mean.
    Senator Udall. In your testimony, you discussed the role of 
renewable energy on public lands. Director Jarvis, could you 
expand on how the NPS is working more broadly with the 
Department itself on developing renewable energy?
    Mr. Jarvis. In two areas. One, in sort of our own house, we 
are looking to where renewables may be appropriate that are for 
our operations. We are really not looking on national park 
lands, nor should we frankly, to be producing renewable powers 
for export.
    However, on the public lands that in many cases are 
immediately adjacent or within the environs of national parks, 
such as BLM lands, there are large proposals for major 
development of solar arrays, hydro-solar, hydro-kinetics, wind 
energy, all of those kinds of things. Then that energy must be 
moved via corridors across the landscape from perhaps places 
that energy can be developed to energy where it is really 
needed.
    My experience thus far within the Department of the 
Interior where most of this work is being done has been a very 
robust and very cooperative relationship where all of us are at 
the table to ensure that as these developments are completed--
and many of them are on fast tracks to get them done--that the 
National Park Service's concerns for connectivity, for wildlife 
corridors, for viewsheds, for water, for cultural resources 
effects are all being strongly considered as we develop this on 
a landscape scale. So we are very actively engaged in all of 
this at this time.
    Senator Udall. My time is expiring, but let me at least ask 
you one question that may take additional testimony for the 
record.
    You have to manage within finite boundaries in an 
increasingly complex and rapidly changing environment and 
really without precedent, as you point out. Do you think you 
have the authority to manage for the ongoing and expected 
effects of climate change or those effects related to climate 
change?
    Mr. Jarvis. At this time, I cannot specify any additional 
authorities that I think the National Park Service needs.
    If there is any silver lining to climate change, it forces 
us as a country, as particularly Federal agencies that have 
this responsibility, to think and act at the landscape scale.
    As you well know, the Federal estate of this country or the 
entire estate was divided up into specific boundaries, whether 
it was military reservations or Indian reservations or national 
parks or forests or BLM lands and then the private side as 
well. For many years, we have managed those with some 
expectation of predictability about their long-term 
sustainability and climate change challenges that, challenges 
us in a very large way, that perhaps for migratory species like 
migratory waterfowl, that these wetlands will no longer be 
there.
    So the question becomes, where are they going to be, where 
should they be?
    At this point, we are in that dialog. We are in that 
discussion, and I do not think we are ready yet to say we need 
new authorities. What we need is the commitment on the part of 
the Congress and the President and the Department of the 
Interior and the Department of Agriculture, as the other major 
land managers here, to really work cooperatively to look at 
strategies for long-term sustainability of these ecosystems.
    Senator Udall. Thank you for those answers.
    Senator Burr.
    Senator Burr. Mr. Jarvis, welcome. Let me go straight to 
sort of the Pacific West where you instituted a goal in 58 
parks to have a carbon-neutral park operation by 2016. Let me 
ask, if I could, what was the cost of that program projected 
over that period of time?
    Mr. Jarvis. We found that it depends on which--we set that 
goal and then we began to dive down into it to really 
understand it. A lot of it depends----
    Senator Burr. But you had started instituting things, I 
think I heard you say in your testimony.
    Mr. Jarvis. Yes, we had.
    Senator Burr. What was the achievement of a carbon-neutral 
parks operation in 58 parks going to cost?
    Mr. Jarvis. I do not have the bottom line figure on that. I 
do not know what that total would cost.
    Senator Burr. So the Park Service, before starting this 
program, did not ask for what the price tag was going to be.
    Mr. Jarvis. No, sir, we did not.
    Senator Burr. Let me ask for a clarification. You talked 
about the reduction of electricity at the Grand Canyon by 30 
percent, if I understood you, for Grand Canyon facilities.
    Mr. Jarvis. That one facility.
    Senator Burr. That one facility.
    Mr. Jarvis. Yes, sir.
    Senator Burr. Since the Grand Canyon derives their power 
from the Hoover Dam, therefore, reducing that electricity did 
not reduce carbon at all. Is that a wise investment if the goal 
is to reduce the carbon footprint?
    Mr. Jarvis. As I understand the electrical system in this 
country, it is very much of an integrated system, and there is 
sort of a total demand and then some of that demand comes from 
green power and some of it comes from coal-fired powerplants or 
a variety of other sources. I think the goal here is, where we 
can, to look for those opportunities to add renewables where it 
is appropriate. I think what it does is it offsets the overall 
demand in that case.
    Senator Burr. You are right in a general sense, but from 
the standpoint of our inability to store electricity when you 
have got something as massive as the Hoover Dam project, it 
means that that is either consumed or you cut back on your 
generating capacity. Yet, you still have the water flow. I only 
point out the point because you made it perfectly clear. The 
goal is to reduce carbon, to become carbon-neutral. I just 
found it odd that that would have been a project that we would 
have invested in since it had no impact on what the goal was.
    Do you intend to expand this program park-wide?
    Mr. Jarvis. We have not done the analysis nationwide to 
figure out how we would get our organization to sort of a 
carbon-neutral standpoint.
    Senator Burr. So we would not know what that would cost for 
the entire park system.
    Mr. Jarvis. No.
    Senator Burr. I have heard that there is a goal of 2016, 
and I have heard that the 2016 was removed. Can you clarify 
that for me?
    Mr. Jarvis. We are reconsidering whether or not we can 
bring the Pacific West--let me get down into the details on 
that. Under current regulations for power in, for instance, 
southern California, essentially if you are an agency like the 
National Park Service, we can produce power at the local site 
but, as they say, behind the meter. So I would have to, under 
current regulatory law, build enough solar arrays in Yosemite 
National Park in order to offset its use. That would be 
unacceptable for a variety of reasons. It is fairly obvious 
that you would not want to build that kind of solar array in 
Yosemite National Park. What I would like to be able to do is 
to build a solar array on other lands, perhaps abandoned mine 
lands some place like within the Mojave, that could offset 
Yosemite. But we do not have the regulatory authorities to do 
that at this time and that is one of the things we have been 
negotiating with the regulators and the power producers who are 
actually very supportive of this in concept, but in terms of 
current authorities, we are not there.
    Senator Burr. Are you not also talking about regulating 
land adjacent to parks, buffer zones that are not under Park 
Service jurisdiction?
    Mr. Jarvis. No, sir, we are not proposing any type 
regulation or buffer zones outside----
    Senator Burr. Would you agree that to do that, you would 
have to have legislation passed in Congress in some fashion 
that would----
    Mr. Jarvis. In order to regulate?
    Senator Burr. Sure.
    Mr. Jarvis. Absolutely. We are not proposing or even asking 
for that.
    Senator Burr. Let me ask for just a clarification on your 
point about the increased fire hazards in parks and climate 
playing a role in that. Would it be wise for us to consider a 
timber harvest program more aggressive so that we can get some 
of that dry timber out to reduce the fire impact?
    Mr. Jarvis. In the National Park Service, we do not allow 
that kind of timber harvest because it is in conflict with our 
organic legislation, and I really cannot speak to the other 
public lands in that regard.
    I think what we need to do in my opinion is reevaluate our 
fire policies in terms of both how we use wildland fire, 
prescribed fire, as well as fuel reduction.
    Senator Burr. I spoke incorrectly. I meant the fuel 
reduction program.
    I thank the chairman.
    Senator Udall. Thank you, Senator Burr.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations, Mr. Jarvis, on your recent approval.
    Mr. Jarvis. Thank you.
    Senator Shaheen. I share the concern that you and the 
chairman have expressed about the impact that climate change is 
having on our national parks and applaud efforts to mitigate in 
whatever way you can those impacts and believe that what we 
need is legislation at the Federal level that is going to 
address this issue throughout the country, not just in the 
national parks.
    While we do not have any national parks in New Hampshire, 
we are the home to Ken Burns who is the documentary filmmaker 
of the national park series, and he said that that has been one 
of the series that he has enjoyed most. So it is truly an 
impressive film.
    I am actually here not, however, to discuss with you the 
impacts of climate change on our national parks, but to raise 
another concern that we have in the Northeast about what is 
happening with reorganization of the park office in the 
Northeast Region. As you may recall, I raised this concern with 
you at your nomination hearing. The reorganization is leading 
to the reduction of staff from 107 to 45 in the Boston regional 
office, a loss of 62 positions that are going to be replaced in 
Philadelphia actually, as I understand, with even more 
positions. The real impact for us is what is happening with 
parks programs in the Northeast and particularly in New 
Hampshire, the Rivers, Trails, and Conservation Assistance 
Program is one that we have relied on. It has made a huge 
difference for us as we have tried to protect special places in 
New Hampshire. I am very concerned about what the impact of 
this reorganization is going to be on that program and other 
Park Service programs in New Hampshire and throughout New 
England.
    I understand that the plan has been in the works for some 
time. But when you were here at your confirmation hearing, I 
asked you about the status of the reorganization, and you 
committed that you would take a close look at what is being 
proposed once you were confirmed. You said--and I quote--``my 
commitment to you is to take a very close look at what is being 
proposed in the Northeast Region and work with your office to 
find a solution.''
    Unfortunately, since we spoke, I received a letter that 
indicates to me at least that the decision has already been 
made, that the reorganization is going forward. I found that 
very disappointing and just wondered if you could clarify the 
status of the reorganization and whether, in fact, you are 
going to have an opportunity to take a close look at what is 
being proposed and consider whether to go forward with that.
    Mr. Jarvis. Thank you, Senator. I actually have looked into 
this with some detail, and there are three parts to it. As you 
indicated, a lot of these actions, particularly the personnel 
actions, at the time of my confirmation hearing were already in 
play and related to offers of early retirement for, I believe, 
22 employees, of which a number took those opportunities as 
Federal employees, which they can.
    But I did insist on a reevaluation with the Regional 
Director of the Northeast, Dennis Reidenbach, to give me an 
alternative reorganization, which retained most of the existing 
staff in that office, which he has presented to me. We had a 
conversation on it this past week, which I think will retain 
pretty much all of the existing staff in that office.
    The third piece, though, is that the Rivers and Trails 
Conservation Assistance Program, which is the community 
assistance arm of the National Park Service (it has nothing 
really to do with the units) it has been in decline for 8 years 
in terms of the budget. So those positions have just--I mean, 
you speak specifically of your home State, but across the 
country, these positions have been in decline. So it is an area 
that I want to regrow in the organization. I have hired a 
deputy director for community assistance, feeling that these 
are very important individuals and assets for the program. But 
that is an appropriations issue, but it is my intent--although 
fiscal year 2011 is really the first budget that I am having an 
opportunity to have any influence over--to talk about 
rebuilding the RTCA program, which can be collocated pretty 
much anywhere and certainly in your State.
    So I am on top of this and would be glad to come by and 
give you the details on our proposed alternative.
    Senator Shaheen. I would appreciate that, and we will 
contact your office about setting up a time. Thank you.
    Senator Udall. Thank you, Senator Shaheen.
    I think we will do a second round, and let me recognize 
myself.
    Director Jarvis, you talked about several park units that 
face a potential threat from rising sea levels. Could you talk 
about specific management tools that you are beginning to 
utilize to protect cultural resources in national parks from 
the effects of climate change? Of course, it would not just 
apply to coastal areas but those are very, very obvious.
    Mr. Jarvis. Yes, chairman. The coastal areas are one of our 
highest concerns in terms of cultural resources. We have 
literally thousands of miles of coastal resources in national 
park units. For instance, in the Hawaii Islands on the big 
island of Hawaii, there are cultural resources that are very 
important to native Hawaiians like at Kaloko-Honokohau or 
Puukohola Heiau, and these potentially will be impacted by sea 
level rise. So No. 1 is prioritizing their inventory to 
determine what is truly at risk, and if possible, in some 
cases, documenting them or, in some cases, collecting them if 
we really feel that they are going to be damaged by sea level 
rise or storm surge. I think in some cases it is going to 
require us to do a triage to say what is our highest value and 
what can be protected.
    The second question, just what is uphill, we are working 
with the U.S. Geological Survey to do detailed mapping of our 
coastlines within the national parks, down to fairly tight 
detail, and then taking the predictive models of sea level rise 
to sort of look at what zone will have the predominant both 
effect of a sea level rise, as well as storm surge, and then 
refocusing our priorities in terms of inventory of cultural 
resources within those zones.
    Senator Udall. One of the most interesting adventures I had 
through the years was hiking the Olympic seashore during the 
winter during a high tide cycle and a storm cycle. Those are 
small beaches.
    Mr. Jarvis. Did you make it up the slope before the waves 
hit----
    Senator Udall. There were some fairly desperate beach 
crossings trying to time it and not be caught up in the 
backwash of the huge logs and all the rest that the surf picks 
up. But I think just about that area and how it would be 
affected.
    A little closer to home, talking about fish and wildlife, I 
was recently notified in the Black Canyon of the Gunnison 
National Park that the native Colorado cutthroat which has 
refuge there has lost 90 percent of its historic range 
according to experts. What will you do to ensure that fish and 
wildlife habitat remains intact across park units? What can you 
do, I should add.
    Mr. Jarvis. I think particularly fish species that have 
depended upon snowpack, which as it melts through the summers, 
really retains the cool temperatures particularly that trout 
need, are going to be one of our greatest challenges.
    Our two best partners in preserving wildlife and fish are 
the States and the U.S. Fish and Wildlife Service. I think 
these landscape conservation cooperatives that are being 
designed and being launched--there is funding in fiscal 1910 
and fiscal 1911 to stand these up. We are already starting to 
make a determination of where the most sensitive environments 
are that we really need to stand these up and to put wildlife, 
in particular fish and wildlife which certainly do not pay any 
attention to administrative boundaries, are going to be the 
absolute key to figure out how we preserve these over the long 
term where these animals are going to have to move to in order 
to survive.
    Senator Udall. The National Park Service management 
policies say very little that directly refers to climate 
change. Should that document reflect more broadly the state of 
our knowledge and concern about climate change?
    Mr. Jarvis. At some point, yes, but the management policies 
currently provide us, I think, the appropriate level of 
guidance in order to begin this process of understanding 
climate change and the effects. But I think within 3 or 4 
years, when we really get these landscape conservation 
cooperatives up, we begin to really focus the science and 
better understand these effects, then I think there are going 
to have to be at least some amendments ultimately to our 
management policies. But not at the moment.
    Senator Udall. Not at the moment. You would wait until we 
had more developed knowledge and----
    Mr. Jarvis. Yes.
    Senator Udall [continuing]. Had a better sense of the field 
of play. Then that knowledge could inform revision of those 
policies.
    Mr. Jarvis. Yes, sir.
    Senator Udall. Senator Burr.
    Senator Burr. Mr. Chairman, I will be really quick.
    Mr. Jarvis, I am really searching for your help in leading 
me in the direction to convince people on the Outer Banks of 
North Carolina, some old enough to remember when most of the 
banks were covered in ocean, that there is a fear for the 
developed end of those, as well as the Hatteras National 
Seashore area, that climate change makes them susceptible now 
to those barrier islands being gone, given that they remember 
when they were not there. How do I explain that to them?
    Mr. Jarvis. I think it is a challenge, Senator. I think 
that climate change is a tough concept for a lot of folks to 
get their grips on. Our frame of reference as humans tends to 
be fairly short. Some of us have been around a long time, so it 
seems long. But I think that this is an effect that has been 
building for some time. I think this is one of the roles of the 
National Park Service.
    For instance, at Mount Rainier National Park where I was 
the superintendent, we have folks that have been coming there 
for generations. They ask, well, what about the ice caves? I 
used to go in the ice caves. The ice caves are long gone. It 
gives them sort of a frame of reference.
    We have fairly good data that can link the loss of the ice 
caves and the retreat of the glaciers to climate change.
    Senator Burr. But can you do a similar thing as it 
relates--I will ask Dr. Noss the same thing because he goes 
into great depth about water levels. How do you make the 
connection when those barrier islands were covered prior to us 
producing the level of carbon that we are doing today? I am not 
sure that you can all do it on currents, which do have an 
impact on where an inlet is cut but not necessarily whether an 
entire barrier island is under water. At what point do you 
require science to say here is the link?
    Mr. Jarvis. I think that personally I am not qualified to 
speak to that particular issue in terms of how you link climate 
change to the barrier islands, and I would defer to Dr. Noss to 
answer that question.
    But I think it is a challenge for us to make it relevant, 
to make these issues understandable enough for individuals to 
take action and be concerned. I think that is a challenge.
    Senator Burr. Let me just say, Mr. Jarvis, that is exactly 
the point I wanted to make, that if you want the American 
people to buy into an effort--because this is their parks. This 
is their investment. Ken Burns said it is about the future and 
future generations, and I believe in that. But without the 
willingness of the American people to make the investment, we 
will come up woefully short of what you might want to do or 
what science might suggest that we want to do. I think every 
step that we make has to be one that we get the buy-in from the 
person who actually signs the check, and that is the American 
taxpayer, that this is beneficial.
    I think when we have areas that we cannot make the direct 
connection--to me, I will not try to go sell that the water 
rise is a function of climate change to people on the coast 
that probably are over 80-some years old because they can 
remember when the islands were covered, and you lose the 
credibility right then. So my point to you is we have got to 
think through what we do about the way that we communicate it, 
but it has to be sellable.
    Mr. Jarvis. I could not agree more. I think it is a 
responsibility, and I think it is one of the unique 
responsibilities of the National Park Service to help 
communicate it. But we cannot be hysterical about it and we 
cannot take it beyond what the science really supports either.
    Senator Udall. Thank you, Senator Burr.
    I want to thank you, Director Jarvis. If you had any final 
comments for the record, I am happy to either hear them now or 
you can certainly direct them to us over the next couple weeks.
    I did want to also mention when you mentioned your stint at 
Mount Rainier, we have been blessed on the committee with the 
services of one of the NPS' finest, Mike Gauthier, who is also 
known as ``Gator.'' He is sitting behind me here, and we want 
you to know that we appreciate his service and his knowledge of 
the National Park Service and the great work the flat hats do.
    But thank you again for being here today.
    Mr. Jarvis. Thank you, chairman. Thank you, Senator.
    Senator Udall. We will ask the second panel to take your 
seats and we will turn right to your testimony.
    Gentlemen, welcome. Let me turn immediately to Dr. Williams 
who is the President of the Wildlife Management Institute from 
Gardners, Pennsylvania. We would like to hear your testimony, 
and then we will come across to the other two witnesses, and 
then we will come back around for a series of questions. If you 
can keep your remarks in that 5- or 6-minute timeframe, that 
would be appreciated so we can then have some time for an 
exchange of ideas and questions. Dr. Williams, the floor is 
yours.

   STATEMENT OF STEVEN WILLIAMS, PH.D., PRESIDENT, WILDLIFE 
               MANAGEMENT INSTITUTE, GARDNERS, PA

    Mr. Williams. Thank you, Mr. Chairman, members of the 
subcommittee for this opportunity to address the impacts of 
climate change on our National Park System.
    I am Steve Williams, the President of the Wildlife 
Management Institute. We are a nonprofit organization founded 
in 1911. It is a scientific and educational organization 
dedicated to conservation of North America's wildlife and 
natural resources.
    Prior to serving in this capacity, I had the honor to serve 
as the Director of the U.S. Fish and Wildlife Service and in 
addition have 17 years of experience working for three State 
fish and wildlife agencies.
    I sit here today before the subcommittee not as an expert 
in the origin or solution to climate change, but as a wildlife 
professional who has had the good fortune of experiencing most 
of the major biomes on this continent and the ability to 
interact with professional managers of those properties.
    Climate change, I believe, whether a function of natural 
processes, human processes, or probably more likely a 
combination of both, is occurring across the continent. I make 
this statement based on my understanding of the scientific 
literature, discussions with Federal, State, and academicians, 
and some of my personal experiences.
    Very briefly, in terms of short-term observations, not 
scientific, but anecdotal, I just bring up, I guess, two 
situations.
    Thirty years ago, my wife and I on our honeymoon went to 
Glacier National Park. We had the good fortune about 4 years 
ago to return to that park, and both remarked on the loss of 
glaciers that we thought we observed. Looking at the pictorial 
history of Glacier, our observations were confirmed.
    In a similar vein, over the last 35 years, I have spent a 
fair amount of time in Grand Teton National Park, worked there 
for 7 years guiding float trips on the Snake River and 
experienced the same loss in glaciers.
    Warmer and drier climates are expected to alter weather 
patterns, and I will not go through all those details. I think 
Director Jarvis did a good job of hitting on those. But those 
changes will have impacts on the timing and process of plant 
and animal life cycles, and they will also have an impact on a 
species' ability to reproduce and survive. If you combine those 
climate change impacts with human impacts on the environment 
related to energy development, population growth, just 
development of places to live, transportation, and so on, that 
impact is really quite substantial. If we view it over 
thousands of generations that have resulted in what we observe 
in the wild today, I do not think there is any question that 
the last 100 years has really caused a different set of 
circumstances in how those species have evolved.
    The National Park Service has an excellent--along with some 
of our other public lands--but provide an excellent venue as a 
natural laboratory, if you will, to measure some of the impacts 
of climate change. Are species moving up attitudinally? What 
are the impacts on forage production on those national park 
lands, fish health studies, and so on?
    So that is sort of the ecological side of it.
    If I could, just for the last part of my comments, focus 
more on the management challenges for the National Park Service 
just in general.
    Director Jarvis mentioned in the Organic Act the reference 
to leaving these lands unimpaired for the enjoyment of future 
generations. That is the language in the act.
    I think a challenge for the service will be to try to meet 
that goal--as the entire landscape changes in response to 
climate change, to meet that goal of areas within portions of 
that whole natural landscape.
    Second, that is the way the Park Service has been managing, 
rightfully so, for the life span of the agency. I suspect that 
there may be some challenges in trying to meet that mission and 
some of the realities of climate-induced change.
    I am very happy to hear and understand that the National 
Park Service is also putting together a strategic plan, similar 
to the draft the U.S. Fish and Wildlife Service has put 
together. I hope that strategic plan is flexible and adaptive. 
I hope that that plan recognizes the uncertainty associated 
with climate change, adaptive management processes, and the 
potential scenarios that may face parks.
    I will conclude by saying that adaptation funding, which 
fortunately is included in the climate change legislation that 
Congress is considering now, will be absolutely essential for 
our national parks, national forest, national wildlife refuges, 
and even some of the State conservation lands to monitor 
climate change impacts, survey plant and animal species and 
their distribution, restore and manage habitats, deal with 
impacts to wetlands, and so on and so forth.
    We have invested a lot in our national parks and public 
lands through the years, and the past political leaders and 
members of the administration and Congress have created a very 
powerful conservation legacy that we all enjoy. I hope that as 
we move forward, the way we treat our national parks and other 
public lands will speak volumes, I believe, with regard to our 
commitment to the past, certainly our commitment to the future 
and our own conservation legacy.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Williams follows:]
   Prepared Statement of Steven Williams, Ph.D., President, Wildlife 
                   Management Institute, Gardners, PA
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to address the issue of current and expected impacts of 
climate change on the National Park System.
    I am Steve Williams, President of the Wildlife Management 
Institute. Founded in 1911, WMI is a private, nonprofit, scientific and 
educational organization, dedicated to the conservation, enhancement 
and professional management of North America's wildlife and natural 
resources. Prior to serving in this capacity, I had the honor of 
serving as the Director of the U.S. Fish and Wildlife Service. In 
addition, I have 17 years of experience working for three state fish 
and wildlife agencies. I serve on the Board of Directors of the 
American Wildlife Conservation Partners, the Theodore Roosevelt 
Conservation Partnership, the National Fish and Wildlife Foundation, 
and the Conservation Committee of the Boone and Crockett Club.
    I come before you today not as an expert in the origin or solution 
to climate change, rather as a wildlife professional who has had the 
opportunity to experience most of the major biomes of this continent 
and to interact with the professional resource managers responsible for 
their management. Climate change, whether a function of natural 
processes, human processes, or a combination of both, is occurring 
across the continent. I make this statement based on my understanding 
of the scientific literature, my discussions with federal, state, and 
academic scientists, and my personal experiences.
    First from a personal and admittedly anecdotal perspective, I can 
identify two National Parks where I believe, in my short life span, I 
have seen the effects of climate change. The first is Glacier National 
Park. Thirty years ago while on our honeymoon, my wife and I visited 
the Canadian Rockies and Glacier National Park. We were astounded by 
the beauty of these alpine areas. About four years ago we returned to 
Glacier only to see fewer surface areas and volumes of glaciers. We 
both remarked about how the park had changed and how the pictorial 
vistas had been diminished. Later I viewed a pictorial history of the 
major glaciers in Glacier National Park and our observations where 
confirmed. Some predict that in less than 30 years the glaciers will 
cease to exist at this ``Crown of the Continent.'' If so, the crown 
will have lost much of its luster.
    My second example involves my 35 year span of time with Grand Teton 
National Park. During the summers between 1974 and 1981, I worked on a 
dude ranch in the middle of Jackson Hole. Four of those summers I 
guided float trips on the Snake River which entailed conducting 3-4 
trips a day, six days a week, through the heart of Jackson Hole. The 
spectacular Grand Teton mountain range was the backdrop and focal point 
of these trips. Although I did not conduct any scientific analysis of 
snowpack and glacial volumes, I knew those mountains both from afar and 
near. Over the course of the last 35 years, I have a spent a few days 
most every summer visiting Grand Teton National Park. My most recent 
trip there was in August of this year. Through the years, I noticed a 
considerable decline in the glaciers that I had become familiar with 
some 30-35 years ago. It is undeniable that Teton Glacier on the Grand 
Teton and Falling Ice and Skillet Glaciers on Mt. Moran have retreated 
in that relatively short time span. The grandeur of the Grand Teton 
range has become somewhat diminished.
    While Director of the Fish and Wildlife Service, I observed 
numerous glaciers that have retreated throughout Alaska whether they 
were in the Brooks Range, the Chugach National Forest, or on the 
Bristol Bay Peninsula. While serving in this position and based on my 
discussions with resource professionals across the country, I 
recognized that the successful management of our nation's natural 
resources, for the use and enjoyment of current and future citizens, 
would hinge on how state and federal natural resource managers adapt to 
global climate change, change that may impact every biome and habitat 
that we now recognize.
    The projected impacts of climate change have been well identified. 
Warmer and drier climates are expected to result in weather patterns 
that produce: changes in the amounts and patterns of precipitation; 
increased stream and river temperatures; frequency and intensity of 
severe weather events; longer and more intense droughts; levels of 
snowpack and the timing of their melt; more severe wildfires; expansion 
of the range and distribution of insects, parasites, diseases and 
invasive species; and changes in the timing of runoff and intensity of 
flooding. All of these changes would have impacts on the timing and 
process of plant and animal life cycles. Each of these factors alone 
and in combination, will undoubtedly affect plant growth, structure, 
and distribution. In turn, they may also directly impact a species' 
ability to reproduce and survive.
    Scientists expect stream temperatures to increase and flow patterns 
to be dramatically altered. National Parks provide exceptional fishing 
opportunities in the Appalachian and Rocky Mountains. Unfortunately 
these streams may become uninhabitable for native trout which are 
sought after by millions of anglers. Altered stream flow patterns due 
to the timing and speed of snow pack melt will also threaten downstream 
watersheds and water supplies for human populations. Elk populations 
are expected to move to more northern or higher elevations in search of 
more palatable forage, escape from insects, and cooler temperatures. 
Overabundant elk populations like those in Rocky Mountain National Park 
will stress their food supply and neighboring properties as they change 
their distribution and migration patterns. Desert fishes and reptiles 
may die out as ground water becomes depleted and water sources dry up. 
Coastal parks will experience a rise in ocean levels, increased beach 
erosion, and salt water intrusion into coastal marshes and water 
supplies. Alaskan National Parks have already observed glacial retreat 
and erosion of coastal lands. Melting of the permafrost across the 
Alaskan tundra has resulted in impacts to Alaskan native villages, 
release of previously stored carbon reserves, and changes in plant 
habitat. As the term implies, global climate change will have far 
reaching impacts on our environment and those who inhabit it.
    Combine these climate changes impacts to our environment with those 
caused directly by humans and the future looks even more challenging. 
Increases in human population and our growing demand for energy, 
development, transportation and natural resources will further strain 
natural landscapes as they respond to climate change. These trends 
threaten to unravel relatively delicate, natural landscapes in an 
unprecedented manner. Although scientists report that climate cycles 
have occurred over the 100,000 years or more of human habitation on 
earth, during the last hundred or so years we have experienced a rapid 
rate of global warming. This time period also coincides with the most 
rapid increase in human population growth and industrial development 
the world has ever experienced. For most of history, human culture has 
evolved in concert with plant and animal species. The natural world we 
observe today has responded to and evolved with environmental change 
over thousands of generations. The rapid human growth and its impacts 
which we have recently experienced had a dominant influence on the 
environment in a period of about 100 years, not thousands of 
generations. The current and future ecological disturbances associated 
with climate change, habitat loss and fragmentation, energy and water 
development, transportation, and invasive species present a near term, 
natural selection process and evolutionary challenge which, arguably, 
has never occurred in a 100 to 200 year time period.
    How do we study and understand the ecological and cultural 
ramifications of this change? The almost 84 million acres of National 
Park Service (NPS) units, many in relatively large land masses, offer 
venues to inventory ecological resources, monitor resource response to 
climate change, detect that response, conduct research on intact and 
disturbed ecosystems, and prescribe and conduct management adaptations 
to climate change. NPS and its sister organizations' lands, the 
National Wildlife Refuges and National Forests provide some of the best 
laboratories to study ecological systems.
    NPS units occur in every major biome on the continent. From the 
Gates of the Arctic and Denali to the Florida Everglades, the Grand 
Canyon to the Great Smoky Mountains, Rocky Mountain National Park to 
the Caribbean coral reefs, and California's Death Valley to the 
Tallgrass Prairie Preserve of Kansas; NPS units have preserved 
ecosystems in relatively unimpaired states. The Greater Yellowstone 
ecosystem, one of the largest, nearly intact ecosystem in the 
contiguous United States, incorporates National Parks, Forests, and 
Refuges but at the core is the NPS' first National Park, Yellowstone.
    These examples or fragments of natural ecosystems should become 
laboratories within which scientists can examine and document climate 
change impacts. Mountainous park units would allow studies to measure 
altitudinal distributions of plant and animal species that could shed 
light on the response of organisms to increased temperatures. Consider 
the fact that the Missouri, Colorado, Snake, and Columbia Rivers have 
their origins in NPS units. Water quantity and quality monitoring in 
the headwaters of some of the nation's most important rivers will 
provide critical information for downstream communities and industries. 
Forage production studies within NPS units would provide essential 
information for forest and range managers who wish to learn how climate 
change affects these ecosystems. Fish health studies on affected NPS 
stream and river systems would provide valuable information for 
fisheries biologists who rely on these stocks to supply and replenish 
fish populations. Migration and movement corridors for dispersing 
wildlife need to be studied and documented for the future. The studies 
which would provide valuable answers for ecologists and fish and 
wildlife managers are almost unlimited.
    From the National Park management perspective, climate change 
provides a daunting challenge. The organic act's purpose, which 
established the NPS in 1916, was ``to conserve the scenery and the 
natural and historic objects and the wild life therein and to provide 
for the enjoyment of the same in such manner and by such means as will 
leave them unimpaired for the enjoyment of future generations.'' This 
ambitious goal, although admirable in 1916, poses a conundrum for 
current and future park managers. In the face of climate change that 
threatens to change the entire natural landscape, how does one manage 
for no change within portions of that natural landscape? Is the current 
management philosophy and culture of the NPS equipped to reconcile its 
congressionally mandated and static mission with the realities of 
climate-induced change? How does the NPS work in collaboration with its 
federal, state, and private partners and neighbors in achieving this 
static mission, in light of their partners' dynamic future missions and 
goals?
    The Department of Interior (DOI), with Secretary Salazar's 
leadership, has taken recent steps to address this management challenge 
across all bureaus in the department. The September 2009 secretarial 
order established a framework for agency collaboration and coordination 
in response to climate change. Climate Change Response Centers and 
Landscape Conservation Cooperatives have been created to better 
coordinate data sharing and management within Interior bureaus and to 
provide collaboration with DOI partners. The U.S. Fish and Wildlife 
Service has published a draft Strategic Plan for Climate Change which 
is currently open for public comment. This plan focuses on: adaptation, 
mitigation, and engagement. I understand and applaud the fact that the 
NPS is working on a similar document that will contain these common 
elements.
    I believe that NPS leaders, regional, managerial, and field staff 
will face a cultural and organizational challenge as they confront the 
response to climate change. It will be vital that the NPS organization 
from top to bottom be coordinated as they plan and implement their 
activities. The size and apparent autonomy of many of the NPS units 
coupled with their close ties to local communities, could present 
management challenges in carrying out a common, landscape-scale 
strategic plan for climate change response. This strategic plan should 
be flexible and adaptive to changing inputs and impacts. Planning 
documents should incorporate uncertainty, adaptive management 
processes, and plans for an array of potential scenarios that may face 
the individual park unit depending on the form and manner that climate 
change shapes their park. This dynamic approach may be uncomfortable 
for an organization with a mandate and culture of maintaining the 
status quo--``in such manner and by such means as will leave them 
unimpaired for the enjoyment of future generations.''
    Given the predicted impacts of climate change on the nation's 
landscapes, which include our National Parks, resource managers should 
be focused on mitigation and adaptation to enhance the resilience and 
recovery of these habitats. Response to environmental stressors such as 
fire, drought, insects, and floods will challenge on the ground 
management in ways never before experienced. I believe management plans 
should focus on maintaining landscape character and return to natural 
conditions rather than pre-determined, prescriptive management actions 
to achieve singular goals. Management should focus on adapting 
techniques and activities based on what has been learned about past 
performance of those activities. This adaptive management approach 
provides a dynamic process informed by success and failure, and 
responsive to the uncertainties associated with climate change impacts.
    Additional funding to assist in adaptation will be necessary to 
maintain the reputation of National Parks as the nation's premier 
examples of our nation's conservation treasures. Recent DOI budget 
priorities, including funding for the Landscape Conservation 
Cooperatives, will be helpful to federal agencies and their partners. 
Additional funding to coordinate data collection, analysis, and 
exchange between federal agencies such as the U.S. Geological Survey 
and the National Oceanic and Atmospheric Administration will be 
necessary to provide finer-scaled, climate predictive models than those 
currently available. Land management agencies will rely on these 
experts to help define the range of ecological conditions to be 
expected on individual management units.
    Adaptation funding will be necessary to update, repair, and 
maintain park infrastructure and visitor facilities. In addition, 
adaptation funding will be required in our National Parks, National 
Forests, National Wildlife Refuges, and state conservation lands to 
monitor impacts, survey plant and animal species and their 
distribution, conduct research on climate change effects, distribute 
water, battle invasive species, repair water control structures, 
restore and manage habitat, create and protect wetland habitat, and 
manage current and new threatened and endangered species. Without 
adequate adaptation funding, natural resource managers will not be able 
to respond to the obscure and obvious changes occurring across the 
landscapes for which they are responsible and held in trust for the 
public.
    Current funding for status quo management is inadequate to address 
major maintenance and capital improvement projects. Federal agency 
backlogs for these projects total hundreds of millions of dollars. It 
would be a travesty to further exacerbate these financial problems by 
ignoring climate change impacts and their expense on public lands. 
Fortunately, current climate change legislation includes significant 
financial investments in our nation's environmental treasures. National 
conservation, protection, and preservation organizations strongly agree 
that Congress must address our natural resources and the need for 
adaptation funding in any climate legislation that passes Congress. 
This adaptation funding would enhance federal agency activities to 
prepare for and adapt to a changing climate. In addition, it would 
provide significant funding to state fish and wildlife agencies to 
address climate change impacts identified in Statewide Action Plans. A 
comprehensive and coordinated federal, state, and private response to 
climate change impacts is essential. Fish, wildlife, and their habitats 
are not constrained by government, political, or organizational 
boundaries. The National Park Service understands that this approach to 
conservation is essential.
    For more than one hundred years our nation has recognized the 
special importance of our nation's natural resources. At the federal 
level we have established National Parks, National Monuments, National 
Forests, National Wildlife Refuges, and other protected public lands. 
Numerous laws and regulations have been passed, federal and state 
agencies have been created, and billions of dollars have been invested 
in the management of these national treasures. The American public and 
visitors from across the world have revealed in their awe inspiring 
beauty, more than 275 million visitor-days annually in National Parks 
alone. The nation has benefited from the ecological services, such as 
clean water and air, which they provide. We have visited these national 
treasures to enhance our quality of life and educate our children and 
grandchildren about their natural wonders.
    As we face climate change impacts over the coming decades, our 
nation's citizens deserve our continued investment in a uniquely 
American experiment in conservation, setting aside some of our most 
spectacular lands for protection and public use. This experiment has 
become so successful that it is the envy of the world. Our nation's 
past political leaders have created a powerful conservation legacy for 
all of us to use and enjoy. How we treat our National Parks and our 
other public lands will speak volumes about our regard for their work, 
the value we place on current and future generations, and our own 
conservation legacy.

    Senator Udall. Thank you, Dr. Williams.
    Next, we will turn to the Honorable Iliff McMahan, Jr., who 
is County Mayor from Newport, Tennessee. Mayor, welcome. I know 
Senator Burr and I appreciate those elected officials who make 
local government work, and we are really pleased you had an 
opportunity to come up here and join us. We look forward to 
your testimony.

STATEMENT OF ILIFF MCMAHAN, JR., MAYOR, COCKE COUNTY, NEWPORT, 
                               TN

    Mr. McMahan. Chairman Udall and Senator Burr, thank you 
very much for inviting me to testify on the current and 
expected impacts of climate change on the National Park System.
    As you said, I am Iliff McMahan, Jr., and since elected in 
2002, I have served as the County Mayor of Cocke County, 
Tennessee. Fourteen years ago, before becoming mayor, I served 
as the first tourism director for Cocke County where we focused 
on marketing our county has an ecotourism destination of 
choice.
    My appearance here today is to highlight the relationship 
between our national parks and Cocke County and how rural 
communities and economies are dependent upon the ecological 
stability of national parks. National parks face many 
challenges, but none as far-reaching as climate change. If not 
addressed, climate change threatens the economic well-being of 
Cocke County and similar national park gateway communities 
around the Nation.
    Cocke County is a rural community in east Tennessee with a 
population of 35,000 citizens and contains a portion of two 
units of the National Park System, a national forest, a State 
forest, and three major watersheds. Approximately 35 percent of 
the land in our county is publicly owned and produces very 
little tax income.
    However, we receive significant economic benefits from our 
public lands by serving as the northern gateway to the Nation's 
most visited national park, the Great Smoky Mountains. This 
places upon us an awesome responsibility to work with our 
partners to protect these very special places. Cocke County has 
had to look beyond traditional economic development 
opportunities and toward marketing our natural resources to 
diversify our economy. This has helped to insulate our county 
from the very worst impacts of the economic downturn.
    In the Smokies, bad air quality, mercury pollution, 
decreased visibility, acid deposition, and invasive species are 
decimating our forests and our wildlife. But there is one issue 
we are failing to address at this time: climate change and our 
national parks. Congress needs to provide better policies and 
more funding to address the climate change and all of the 
challenges that face our national parks. Many tourists come to 
the Smokies to fish our cool streams but just an increase of 2 
degrees or an extended drought like we experienced in 2007-2008 
could weaken native fish populations forever. This would be a 
major loss to the regional biodiversity, and this would also be 
a major loss to our local economies.
    Cocke County depends upon our visitors to eat at our 
restaurants, buy fuel and groceries in our stores, stay in our 
lodging, and contribute to the tax base that keeps us 
prosperous. In Arkansas, Missouri, and Tennessee alone fishing 
created $2 billion in related expenditures in 2006.
    Like many rural counties around the country, my county 
depends upon the health and vitality of our State and Federal 
lands for our continued and future prosperity. National park 
lands where air and water and wildlife are protected means 
tourists will continue to come to Cocke County to see, to hear, 
and to experience our spectacular park lands. If these 
resources are diminished by allowing climate change to continue 
unaddressed, our county's existing and financial future health 
will be impacted.
    Now, I am no expert on climate policy, but what I do know 
is that our parks are changing and we have a unique opportunity 
now to protect these special places and at the same time boost 
our local economies. As County Mayor, it is my responsibility 
to work with you in partnership to make sure that we are 
proactive park stewards. Fully funding a coordinated effort 
between our partners to conduct scientific research, natural 
resource adaptation, and management projects just makes good 
business sense for the future of our national parks and for our 
gateway communities.
    Now, in conclusion, sir, I feel that every day is another 
opportunity for Cocke County to strive to realize our full 
potential as a viable and sustainable rural community. We value 
our mountain traditions and our natural resources and we work 
daily to showcase them to the world. Therefore, it is incumbent 
upon us to work together in partnership to protect our valuable 
national parks from our changing climate and assure that future 
generations will be able to enjoy the Smokies as we do today.
    I want to thank you for inviting me to testify, to share 
our story, and to join this conversation on the future health 
and well-being of our national parks. I want to say God bless 
you in your efforts. Thank you very much, Mr. Chairman, Senator 
Burr. Appreciate it.
    [The prepared statement of Mr. McMahan follows:]
    Prepared Statement of Iliff McMahan, Jr., Mayor, Cocke County, 
                              Newport, TN
    Chairman Udall and members of the Subcommittee, thank you for 
inviting me to testify on the current and expected impacts of climate 
change on units of the National Park System. I am Iliff McMahan, Jr. 
and since 2002 I have served as the County Mayor of Cocke County, 
Tennessee. Before becoming mayor I served as the first Tourism Director 
for Cocke County, as the first Tourism Director for the Morristown Area 
Chamber of Commerce, later as General Manager of the Chamber, and as 
Manager of Marketing and Public Relations for Newport, Tennessee 
Utilities. In 2004, I was elected to a position on the national board 
of directors for the County Executives of America representing rural 
counties across the nation, and was appointed by Tennessee Governor 
Phil Bredesen to a statewide position on the Tennessee Workforce 
Development Board, an advisory council to the Governor. In addition, I 
serve on the boards for several organizations: the East Tennessee 
Development District, East Tennessee Human Resources Agency, currently 
serve as Chairman for the East Tennessee Regional Agribusiness 
Marketing Authority, a member of the National Parks Conservation 
Association Southeast Regional Council, Smoky Mountains Workforce 
Development Board, East TN Quality Growth Council, Great Smoky 
Mountains Regional Greenways Council, and Boys & Girls Club of Newport/
Cocke County. My appearance here today, however is not on behalf of any 
organization, but rather to highlight the interconnectedness between 
the ecological stability of the Great Smoky Mountains National Park and 
Appalachian National Scenic Trail and the economy of Cocke County, 
Tennessee. I would also like to highlight how across the United States 
rural economies are dependent on the ecological stability of national 
parks. National parks face many threats, but none as far-reaching as 
climate change. If not addressed climate change threatens the economic 
well-being of Cocke County and similar national park gateway 
communities around the United States.
    My testimony addresses the following topics: (1) the Cocke County 
economy and our dependence on our national park units, (2) the 
projected impact of climate change on the Great Smoky Mountains 
National Park and the Appalachian National Scenic Trail and by 
extension to our gateway community economy, (3) the need for a 
coordinated local, state, and federal collaborative plan to address 
climate change in national parks to protect both our natural and 
cultural heritage and the economies of surrounding communities, and (4) 
the opportunity for economic growth that setting aside funds for 
scientific research and natural resource adaptation provides for 
national park gateway communities.
       the cocke county, tennessee economy and our national parks
    Cocke County is a small rural county in East Tennessee with a 
population of thirty-five thousand citizens and a land-base of four-
hundred and thirty-four square miles. Of the ninety-five counties in 
Tennessee Cocke County is the only county which contains a portion of 
two units of the National Park Service (The Appalachian National Scenic 
Trail and the Great Smoky Mountains National Park), a national forest 
(the Cherokee National Forest), and a state forest (Martha Sundquist 
State Forest). We are also home to the Nolichucky, Upper French Broad, 
and Pigeon River Watersheds; three of the largest watersheds in the 
State of Tennessee. Approximately, thirty-five percent of the land in 
our county is publicly owned and does not produce tax income. However, 
in addition to payments in lieu of taxes, we receive significant 
economic and community benefit from our public lands. In particular, 
Cocke County serves as the northern gateway to our nation's most 
visited national park, the Great Smoky Mountains National Park. Our 
county's proximity to so many notable state and federal lands places 
upon us an awesome responsibility to work with state and federal 
government to protect these special places.
    As a small rural county with a large percentage of lands in public 
holding, Cocke County has had to look beyond traditional economic 
development opportunities to our natural resources to diversify our 
economy. Most relevant to today's hearing topic, since 1995 Cocke 
County has seen a significant increase in the size and capacity of our 
county's ecological-tourism based industry. Horseback riding, camping, 
hiking, backpacking, whitewater rafting, hunting, fishing, and a myriad 
of additional outdoor activities have increased and continue to grow in 
Cocke County. Despite the national economic downturn of the past year 
we have seen a significant increase in tax income from these and 
associated activities. Our work to expand and grow Cocke County's 
thriving eco-tourism industry has insulated our county from the worst 
impacts of the economic downturn.
    Around the United States between 1970 and 2003 rural counties like 
Cocke County that neighbor national parks outperformed non-park rural 
counties by forty-three percent in job growth, thirty-seven percent in 
personal income growth, and an impressive eighty-six percent in 
population growth. National parks generate four dollars in value for 
every tax dollar invested, support over thirteen billion dollars in 
private sector activity, and over four billion dollars in wages in 
gateway communities like mine. Outdoor recreation nationally supports 
nearly six and a half million jobs and creates eighty-eight billion 
dollars in state and federal tax revenue nationally. My county depends 
on the health and vitality of our State and Federal lands for our 
continued and future prosperity. National park lands where air, water, 
and wildlife are protected means tourists will continue to come to 
Cocke County to see, hear, and hike in our spectacular park lands. If 
these resources are diminished in favor of development or by allowing 
climate change to continue unaddressed our county's existing and future 
financial health could be impacted.
  the impact of climate change on cocke county and our national park 
                                 units
    This year Tennesseans and the nation celebrated the seventy-fifth 
anniversary of the creation of the Great Smoky Mountains National Park 
and in 2016 we will all celebrate the centennial of the creation of the 
national park service. There are many threats that face parks around 
the country. In the Smokies and Cocke County bad air quality frequently 
results in violations of the Environmental Protection Agency's air 
quality standards in the summer months. Significant concentrations of 
airborne mercury are deposited in the region, poisoning species from 
native trout to the iconic black bear. Decreased visibility results 
from haze pollution and degrades the scenic vistas that are an 
important attraction for visitors. Acid deposition weakens fragile 
ecosystems and poisons our streams. Invasive species are decimating 
forest and the wildlife that depend on their health. The human 
footprint around the Smokies, Cocke County included, is large and 
increasingly threatening traditional wildlife corridors. These are all 
long-standing issues I have in my time worked with county, state, and 
national counterparts to address, but there is one issue we are failing 
in the policy realm to address at this time: climate change in our 
national parks. Congress needs to provide more funding and better 
policies to address climate change and all of the issues that face our 
national park units cumulatively rather than address one impact at a 
time.
    The Smokies provide an island of wilderness in one of the most 
populated parts of the country. Temperatures in Appalachia have been on 
the rise since the 1970's and already these changes have taken a toll. 
Climate models have predicted increased drought, increased flooding, 
and temperature increases in the southern Appalachian region. Iconic 
species, such as the Frasier fir, already under pressure from air 
pollution and invasive species, could disappear without proactive 
effort on our part. Without a change of course conditions in the park 
could become unsuitable for flora and fauna found nowhere else in the 
world.
    Many tourists come to the Smokies to fish our cool streams, but an 
increase of just two degrees Celsius or an extended drought could alter 
or weaken native fish populations forever. This would be a major loss 
to regional bio-diversity, but this would also be a major loss to local 
economies. Cocke County depends on fisherman to eat at our restaurants, 
buy fuel and groceries in our stores, stay in our lodging, and to 
contribute to the tax base that keeps Cocke County running. In 
Arkansas, Missouri, and Tennessee alone fishing created two-billion 
dollars in related expenditures in 2006. Counties like mine around the 
United States have a lot to lose if we fail to address the most 
significant impacts of climate change. A United States Travel 
Association poll taken in 2009 showed that sixty-four percent of 
travelers are concerned about climate change. Travelers are the bread 
and butter of my gateway county economy, and if visitors are concerned, 
leaders in every national park gateway community should be too.
              the need for a collaborative adaptation plan
    Every year over ten million visitors come to the Great Smoky 
Mountains National Park, to hike the Appalachian National Scenic Trail, 
and to visit our other state and federal lands. In fact, this year 
despite the economic downturn the Great Smoky Mountains and other units 
of the national park system have seen a five percent increase in 
visitation. Global climate change threatens our unique resource. The 
Great Smoky Mountains is the most diverse biosphere in the northern 
hemisphere, and given our dependence on the park for our economic well-
being and our personal connection and history around this unique place, 
it is our job to make sure that we protect and create the opportunity 
for all our national parks to adapt to the most sever impacts of 
climate change. We must work nationally to develop an effective 
strategy to lower overall global concentrations of greenhouse gases to 
protect our parks, but there is much to be done on the ground to deal 
with the impacts that are at this point beyond our control. 
Coordinating and planning to mitigate impacts to natural and cultural 
resources as well as develop tools to adapt to the changing environment 
will help to assure that the Smokies remain intact so future 
generations of Cocke County residents and visitors will have an 
opportunity to connect to our beautiful and unique parks.
    It is widely accepted that our national parks can play an important 
role in understanding climate change and responding to it. First, the 
national parks provide a classroom for understanding and studying how 
climate change is impacting our entire environment. Second, the 
national parks offer a refuge for species that are--or might be--
displaced by a changing climate. Third, as part of the mix of state and 
federal lands, the national parks will play an important role 
sustaining ecosystems and ecological processes that see no park 
boundary. The national parks, simply put, give us the ability to better 
understand, mitigate, and adapt to a changing climate.
    The natural resource adaptation provisions passed in the House of 
Representatives, ``Clean Energy and American Security Act'' set up a 
structure for resource adaptation that should be strongly considered by 
members of the Senate. It is my understanding that the Kerry-Boxer, 
``Clean Energy, Jobs, and American Power Act'' and a climate change 
adaptation bill sponsored by Senator Jeff Bingaman also mirror the 
language regarding the establishment of a coordinated local, state, and 
federal effort to fund the required scientific research and on the 
ground projects that need to happen to protect our national parks from 
the worst impacts of climate change. I would like to applaud and thank 
all of you for your efforts. However, I would also like to urge you to 
consider fully funding these efforts to make sure that across the board 
natural resource adaptation projects adequately protect the parks in 
our backyard.
            economic growth from natural resource adaptation
    I'm no expert on climate policy, but what I do know is that our 
parks are changing and we have a unique opportunity to protect these 
special places and simultaneously boost local economies. In Cocke 
County we are lucky in these tough economic times to have outstanding 
pubic lands as a reliable source of economic prosperity. However, the 
national park lands that sustain our strong eco-tourism based economic 
growth prevent growth in traditional economic sectors such as 
manufacturing. For all of the added benefits our park units provide to 
our community we still have to deal with the challenge of being a rural 
community working to grow sustainably. Fully funding natural resource 
adaptation programs around national park units and other federal and 
state lands will create much needed jobs around the United States and 
Cocke County is no exception.
    By safeguarding wildlife populations, rivers, forests, and deserts 
in national parks around the United States a strong well-funded natural 
resource adaptation program will protect national park units that 
maintain seven-hundred and thirty billion dollars in economic activity 
and sustain nearly six and a half million jobs nationwide. It will also 
create new jobs in gateway communities around the country. A fully 
funded program would create jobs around the United States for 
scientists, engineers, construction crews, equipment operators, 
firefighters, educators, students, youth workers, and the host of 
support service providers in manufacturing and local business. The 
important work that needs to be done to restore wetlands, forests, and 
maintaining habitat for wildlife migration and corridors will create 
opportunity around the country and hopefully at my home in Cocke 
County. By protecting our natural resources in national parks and other 
state and federal lands we can sustain a critical economic engine for 
our communities that might otherwise sputter out in the face of growing 
impacts from climate change.
    It is my job as County Mayor, and my personal responsibility as a 
member of a family that gave up our land for the creation of the Great 
Smoky Mountains National Park, to work with you in partnership to make 
sure that we are proactive park stewards. I am not an expert on climate 
policy, but as the owner of a working cattle farm, it is clear to me 
that if you do not maintain and manage your herd properly you are going 
to have a heck of a time keeping the farm open and an even more 
difficult time turning a profit. Like a working farm, we need to 
maintain our national parks with progressive stewardship and adjust to 
changes in the weather or else we might lose the farm. Fully funding a 
coordinated effort between local, state, and federal agencies to 
conduct the appropriate scientific research, natural resource 
adaptation and management projects makes good business sense for the 
future of our national parks.
    Every day that I see the sun rise over Mount Cammerer in the 
Smokies is another day to help Cocke County realize our full potential 
as a viable and sustainable rural community. Cocke County is a 
community where we value our mountain traditions and natural resources 
and we work daily to showcase them to the world. Global climate change 
is a major threat to our precious heritage, but through thoughtful, 
progressive policy initiatives and a little American ingenuity we can 
protect our valuable national park resources and assure that our future 
generations will be able to enjoy the Smokies and hike the Appalachian 
Trail as we can today.

    Senator Udall. Thank you very much, Mayor.
    We turn to Dr. Reed Noss. He is the Davis-Shine Professor 
of Conservation Biology at the University of Central Florida in 
Orlando, Florida. Doctor, welcome. The floor is yours.

  STATEMENT OF REED F. NOSS, PH.D., DAVIS-SHINE PROFESSOR OF 
 CONSERVATION BIOLOGY, UNIVERSITY OF CENTRAL FLORIDA, ORLANDO, 
                               FL

    Mr. Noss. Thanks very much, and good afternoon, Senator 
Udall, Senator Burr, and others present.
    As Senator Udall mentioned, I am at the University of 
Central Florida. I am also President of the Florida Institute 
for Conservation Science, which is a nonprofit science think 
tank, and an elected fellow with the American Association for 
the Advancement of Science. Relevant to this hearing, I 
recently served as Vice Chair of a Federal advisory committee 
for the U.S. Climate Change Science Program.
    I want to get right to the heart of the major topic of 
discussion here, which is the relationship between climate 
change and the integrity of our national parks. There are two 
basic points I want to make.
    One is that climate change will not be good for national 
parks. That is a no-brainer, but there is no getting around it. 
There are going to be problems.
    But the second point is also very important. There are 
things we can do now, and hopefully proactively, to reduce the 
impacts of climate change on national parks, and these things 
fall into the category of adaptation, which Director Jarvis and 
others have already referred to. They force us, as Director 
Jarvis pointed out, to start thinking at a landscape level, 
which will also help address a lot of other problems facing the 
national parks.
    So we might ask what kinds of parks are most at risk.
    I do not want to spend much time on this. Those in the far 
north, those in the continental interior are projected to 
experience the greatest increases in temperature and associated 
moisture stress. I believe the committee is well familiar with 
that. Also, of course, the high elevation alpine zones in our 
mountain parks, in the Rockies, the Cascades, the Sierra 
Nevada, but also the Appalachians. These areas will be at risk 
because, as temperature warms, vegetation moves up the slope. 
Those at the top more or less get pinched right off the top of 
the mountain.
    Now, one bit of good news, I think, a ray of hope, is that 
mountainous parks in some respects, especially for terrestrial 
species may have more resilience to climate change than other 
kinds of parks, and the reason is that except for these very 
high elevation areas, at least here there is an elevational 
gradient relatively intact along which species can move in 
response to climate change. So, for example, by moving up slope 
1,000 feet, you get to a climate that is about 3 degrees cooler 
on average. You would have to go 100 miles northward to get to 
that same temperature difference. So there is some advantage 
there.
    Also you have micro-climates such as north-facing slopes, 
sheltered coves, areas around seeps and springs where species 
can basically seek refuge during these periods of hotter 
climate. These have probably been very important in the past.
    In low-lying flat terrain, actually the options for 
adaptation are much more limited, and it is becoming clear to 
me that the national park units and other natural areas in low-
lying coastal areas may be at the greatest risk both for their 
cultural and their biological resources, especially over the 
next few decades and beyond. It is important to bear in mind 
that in the eastern U.S. most of the acreage in the National 
Park System is very low-lying coastal area. Look at Everglades 
National Park and the contiguous Big Cypress National Preserve. 
We have got 2.2 million acres there, more than 2.2 million 
acres, which is larger than Yellowstone, much of it very low 
elevation. Nine of the 10 national seashores are in the east, 
also very low elevation and therefore subject to storm surge, 
to general sea level rise, and other problems related to those 
factors.
    So what will happen to those low-lying areas? It differs 
tremendously from area to area, and I think this is what 
Senator Burr was getting at in his question earlier. We can 
come back to that. But basically I included in the packet in my 
written testimony a projection for Florida and the boundaries 
of the national parks did not come out as well as I had hoped. 
But you can see the projection. This is for 1-meter, 3-meter, 
and 6-meter increments in sea level. Basically most of 
Everglades National Park would be inundated with just a 1-meter 
rise in sea level, and this is now considered a conservative 
estimate of sea level rise by the year 2100. It could be 
faster. It could be quicker. It is very improbable that it will 
be slower or less.
    So what do we do about this? The best we can do, I think, 
is assist the movement of these coastal species and habitats 
inland. Now, I cannot say, I cannot claim that I can tell you 
how to do this. No scientist right now can tell you exactly how 
to do this. We need more research. We need some experimentation 
with various options which will include, I think, some 
intensive engineering options.
    Basically there are two major ways that we can deal with 
it. One is to armor the shoreline with sea walls and levees and 
other structures, bring in tons of sand to replenish beaches 
that are eroding away. The second option is basically to 
implement some form of managed retreat where we systematically 
start to relocate human communities, some structures at least, 
species and habitats, if we can figure out how, inland as sea 
level rises.
    Neither of these options are going to be cheap. They are 
both going to be expensive. The first option, coastal armoring, 
is at best a short-term fix, and it will very soon become 
economically unsustainable except for some very special cases. 
It will be probably an ecological disaster in some areas 
because it will prevent species from moving inland. For our 
coastal national parks, really the only option again is to 
assist movement of species inland.
    Along with this, I think, for the short term we should 
protect as much coastal habitat as we can--and I am talking 
really as a society here, not just the National Park Service--
look very carefully at development in flood-prone areas, for 
example, in these low-lying coastal areas, and try to establish 
broad movement corridors from the coastal national park units 
inland to link up with other conservation areas that are on 
higher ground.
    I urge this committee to think hard about these issues and 
initiate a process to determine precisely what needs to be done 
to minimize the impacts of sea level rise and other climatic 
phenomena on national parks and our natural heritage. I think 
it is especially important right now that funding and direction 
for adaptation to climate change, including sea level rise, be 
included in any climate change legislation. I am very 
encouraged to see movement in that direction.
    Thank you very much for the opportunity to testify before 
this esteemed subcommittee.
    [The prepared statement of Mr. Noss follows:]
  Prepared Statement of Reed F. Noss, Ph.D., Davis-Shine Professor of 
    Conservation Biology, University of Central Florida, Orlando, FL
    I am Reed Noss, the Davis-Shine Professor of Conservation Biology 
at the University of Central Florida and President of the Florida 
Institute for Conservation Science. I have an M.S. degree in Ecology 
from the University of Tennessee and a Ph.D. in Wildlife Ecology from 
the University of Florida. I am the author of more than 260 scientific 
and semi-technical articles and several books. I have served as Editor-
in-Chief of the journal Conservation Biology and as President of the 
Society for Conservation Biology. I am an elected Fellow of the 
American Association for the Advancement of Science. I was recently the 
Vice-Chair of a Federal Advisory Committee for the U.S. Climate Change 
Science Program. I am currently organizing a scientific workshop and 
book on adaptation to sea-level rise in Florida. At many times in the 
past I have served as an ad hoc advisor to the National Park Service 
and other federal agencies.
    Our national parks have long been valued as public playgrounds, 
places for spiritual enrichment, and as bastions of democracy. 
Especially over the last few decades, the national park system has also 
been viewed as a reservoir of wildlife and biological diversity. We all 
know that this value is sometimes compromised, both by over-development 
and other problems within the parks and by things going on beyond park 
boundaries.
    The best known examples of problems originating outside park 
boundaries, but affecting parks are clear-cutting, intensive 
agriculture, road-building, energy development, and urbanization, 
sometimes occurring right up to the boundaries of national parks. These 
activities turn some parks into ecological islands surrounded by highly 
altered land. Migrations of large mammals such as elk, bison, and 
pronghorn antelope in and out of some western national parks have been 
disrupted, to the extent that some populations face extinction.
    Less visible but just as dangerous to the ecological integrity of 
national parks are air and water pollution, acid precipitation, and 
water withdrawals for agriculture and urban uses. Recently, undeniable 
scientific evidence has become available showing that climate change 
and attendant impacts such as sea-level rise may be the greatest 
environmental threat our nation and the world have ever faced. National 
parks are not exempt from this threat--in fact, due their locations 
(very high elevations or very low coastal elevations) they are probably 
more vulnerable than most other lands.
    The two main things we know about climate change in relation to 
national parks are that:

          1) Climate change will not be good for national parks--but
          2) There are things we can do proactively to reduce the 
        impacts of climate change on national parks--these things fall 
        into the category of ``adaptation.''

    Adaptation to climate change is very urgent because we are already 
seeing negative impacts of climate change on wildlife and ecosystems, 
and those impacts will continue to worsen for at least decades and 
probably centuries, even if we drastically reduce our combustion of 
fossil fuels and other inputs of greenhouse gases into the atmosphere.
    To reduce the impacts of climate change on national parks in a 
cost-effective way, we need to prioritize, which requires asking 
several key questions:

          1) What kinds of species are at greatest risk from climate 
        change?
          2) What national parks are most at risk from climate change, 
        in terms of losing species and ecosystem functions?
          3) Conversely, what kinds of parks are likely to be most 
        resilient to climate change?
          4) What kinds of actions should we take to minimize losses of 
        biological diversity and ecological integrity within national 
        parks?

    All of these questions, but especially the last, require sound 
scientific research to answer with confidence and in detail. 
Nevertheless, we have sufficient knowledge now to make some 
generalizations and head in the right direction.
    First, what kinds of species are likely to be at greatest risk? We 
can assume they will be:

  <bullet> Species with narrow geographic distributions (i.e., 
        endemics), in which case loss of only a small area of habitat 
        could result in extinction.
  <bullet> Species closely associated with habitats likely to be 
        eliminated or greatly reduced by climate change. These include 
        arctic, alpine, low-lying coastal, and nearshore marine 
        habitats.
  <bullet> Species that are not very mobile and cannot disperse 
        quickly.
  <bullet> Species that show limited responsiveness to natural 
        selection (from low genetic diversity, long generation times, 
        etc.).
  <bullet> Species that are highly susceptible to emerging diseases and 
        invasive non-native predators and competitors.

    What kinds of national parks are likely to experience intense 
impacts from climate change? We can predict that these include parks in 
the far north, for example Alaska, and in the continental interior, 
because these are the regions expected to show the greatest increases 
in temperature and associated water stress. Alpine areas within parks--
for example in the Rocky Mountains, Sierra Nevada, and Cascades--are 
also at high risk. Alpine areas and their species stand to be pinched 
right of the top of mountains as vegetation zones move upwards in 
elevation with warming temperatures.
    But are mountain parks more at risk generally? Probably not. There 
are many reasons to suspect that parks with extensive elevation 
gradients and high topographic diversity will be more resilient to 
climate change than parks with limited topography. With adequate 
elevation range available, a terrestrial species can migrate upslope 
and reach a cooler climate with much less distance to travel than 
moving northward. In general, an average temperature 3 F cooler can be 
reached by moving upslope 1000 feet but would require moving northward 
100 miles.
    In mountainous parks, species can also seek cooler microclimates 
such as sheltered coves, northfacing slopes, and areas around seeps and 
springs. Indeed, these cooler microhabitats probably serve an important 
role as refuges for species during times of hotter climate, from which 
they can move out and repopulate the surrounding landscape as the 
regional climate cools again.
    Therefore, perhaps the most compelling recommendations that 
scientists can make with respect to biological adaptation to climate 
change are to:

  <bullet> Maintain intact, connected habitats along environmental 
        gradients, for example from the lowlands to the mountaintops.
  <bullet> Locate and protect local areas of cooler and wetter 
        microclimate.

    Opportunities for adaptation are more restricted in flat terrain. 
National parks and other natural areas in low-lying coastal regions are 
the most vulnerable of all and will require the most immediate and 
probably the most costly intervention in order to prevent widespread 
losses of species. The culprit, of course, is sea-level rise.
    Eminent geologists Orrin Pilkey and Rob Young recently wrote in 
their book The Rising Sea (2009): ``Of all the ongoing and expected 
changes from global warming. . .the increase in the volume of the 
oceans and accompanying rise in the level of the sea will be the most 
immediate, the most certain, the most widespread, and the most 
economically visible in its effects.''
    Most of the acreage of the national park system in the eastern 
United States is coastal. Everglades National Park and the contiguous 
Big Cypress National Preserve total more than 2.2 million acres, 
slightly larger than Yellowstone National Park. The nearby Biscayne 
National Park encompasses another 172,000 acres. All but one of our 10 
national seashores are on the Atlantic or Gulf Coasts, and these 
eastern national seashores total nearly 525,000 acres.
    What will happen to these eastern national park units with rising 
sea level? Projections for Florida, as an example, do not look good 
(Fig. 1).* Most projections now show the sea rising at least 1 meter by 
the year 2100--this is the level currently estimated by the U.S. 
Climate Change Science Program. However, many recent projections are 
higher (for example, the State of California is now assuming 1.4 meters 
by 2100 in its planning) and some studies suggest that the rise to 1 
meter or more above current levels could happen significantly sooner 
than 2100, depending on what happens to the polar ice caps.
---------------------------------------------------------------------------
    * Graphic has been retained in subcommittee files.
---------------------------------------------------------------------------
    Faced with projections such as these, a natural response would be 
despair. In Florida, we are currently in denial. I am not sure which is 
worse. A more intelligent approach is to examine the options for 
adaptation to the inevitable changes that will occur.
    These options fall into two classes: (1) armor the shoreline with 
seawalls, levees and other structures, and bring in large amounts of 
new sand to build artificial beaches; or (2) managed retreat, where we 
relocate people, valuable structures, species, and habitat further 
inland, above the expected level of sea-level rise. Because many 
structures can not be relocated economically, they will have to be 
abandoned.
    Pursuing either of these options will be difficult and expensive. 
The first option--coastal armoring and building artificial beaches--
would be only a short-term fix, at best, and will soon prove 
economically unsustainable. It would be a disaster ecologically as 
well, by preventing the natural inland movement of habitats and 
species, which has occurred during previous periods of sea-level rise 
many times over the past millions of years.
    For coastal national park units, assisting the movement of species 
inland to colonize new habitats is the only strategy with any hope of 
success. Yet we are still faced with many questions and much 
uncertainty about answers. In the Everglades, for example, can we 
really expect unique communities such as marl prairies (home of the 
federally Endangered Cape Sable Seaside Sparrow) to ``migrate'' inland? 
We simply do not know.
    What about our national seashores? Most of these national park 
units are on barrier islands. Barrier islands naturally move around 
over time with changes in sea levels and currents. But before long 
there will be nowhere to move. The shorelines landward of the barrier 
islands, like much of the islands themselves, are often heavily 
developed.
    All we can do in these cases is protect as much coastal habitat as 
possible now and establish broad movement corridors from coastal parks 
and other natural areas to inland conservation areas. We probably will 
have to physically translocate some species to higher ground and take 
others into captivity indefinitely. We may have to create new beaches, 
well inland of their current location, to provide essential nesting and 
feeding habitat for sea turtles, shorebirds, and many other creatures.
    Sea-level rise and other challenges to national parks and our 
natural heritage posed by climate change do not have to be a 
catastrophe. As Orrin Pilkey and Rob Young put it, sea-level rise and 
its associated impacts ``could all be seen as an opportunity for 
society to redesign with nature, to anticipate the changes that will 
occur in the future and to respond in such a fashion as to maintain a 
coast that future generations will find both useful and enjoyable. It 
provides a challenge to scientists, planners, environmentalists, 
politicians, and other citizens alike to stretch the limits of their 
imagination to respond with flexibility and with careful foresight to 
development challenges that our society has not faced before.''
    I urge this subcommittee to think hard about these questions and 
initiate a process to determine precisely what needs to be done to 
minimize the impacts of sea-level rise and other climatic phenomena on 
national parks and America's natural heritage in general. The sooner we 
take action, the more of our natural heritage can be preserved for 
future generations. We still have a chance to make a difference.
    Thank you for the opportunity to testify before this subcommittee.

    Senator Udall. Dr. Noss, thank you for that testimony. 
Thank you to the panel. All three of you added value and some 
important insights.
    Mayor McMahan, if I could turn to you. I have to make note 
that your enthusiasm is contagious. I am married to a North 
Carolinian. Of course, I am sitting next to a North Carolinian. 
I have to believe that your cousins in North Carolina match 
your enthusiasm for the Great Smokies and for the resources----
    Mr. McMahan. Yes, sir. Thank you.
    Senator Udall [continuing]. That you are so fortunate to 
have in your back yard.
    I assume your Congressman is Congressman Wamp?
    Mr. McMahan. No, sir. No. My Congressman is Congressman 
Phil Roe.
    Senator Udall. Yes, all right.
    Mr. McMahan. A brand new Congressman, first term.
    Senator Udall. So Congressman Wamp, as Senator Burr I know, 
has great enthusiasm about all things Tennessean. Again, you 
remind me of his passion for your wonderful State.
    Mr. McMahan. Thank you.
    Senator Udall. You made it very clear that the economic 
downturn has had very little effect on your visitation numbers, 
which is great news. I think it further points out that 
national parks bring in significant dollars, and gateway 
communities can thrive even in harsh economic times.
    I am curious how you see the potential effects of climate 
change, drought, worsening air quality, to name two, in your 
region on visitation of the Smokies and other national parks, 
if it were to continue to develop in the way we hope it does 
not but looks like it may well.
    Mr. McMahan. Yes, sir. Senator, it would be devastating. I 
believe that if we continue to allow climate change to go 
unaddressed, I feel that--we are blessed. We live in the most 
diverse biosphere in the western hemisphere. I mean, there are 
more plant and animal species in the lower Appalachians, the 
Great Smoky Mountain National Park, than anywhere else. They 
are the third oldest mountain range in the world. When you have 
that kind of rich history sitting in your back yard where you 
have got more visitors than the top three other parks combined 
in visitation--we have about 10 million visitors a year to the 
Great Smoky Mountain National Park--that is a blessing. You get 
to share your precious natural resources and your cultural 
heritage traditions to the entire world.
    The down side of that is that the footprint is enormous, 
and when you are talking about--I know out West and these 
esteemed gentlemen up here have been out West a lot and been to 
some of those parks. You have millions and millions of acres 
and lots less visitation. But when you are talking 525,000 
acres, just a half a million acres, and the footprint of 10 
million visitors, it takes a toll, and on top of that with the 
kind of climate change that we have been seeing, especially 
with the drought a couple years ago--I have a working cattle 
farm. I had to buy hay for 2 years at exorbitant prices from 
surrounding States. It was devastating to the economy of the 
local farmers.
    Now, in saying that, I do not think we can afford not to 
look at climate change because in the future, if we do not, 
then what we have and what we know now and we have known for 
the first 100 years, by 2016 at the centennial we are not going 
to know where to go in the next 100 years. So I feel that if we 
do fully fund research projects and adaptation projects, then I 
feel truly what is going to happen is that we are going to get 
in front--we are going to be proactive in getting in front of 
this problem and see what we can do. There will be an influx of 
capital investment, which in turn for us economically will turn 
around and create jobs and, in turn, increase our tax base. If 
we allow our parks to go unattended in this, then the 
decimation will be just absolutely--it will be brutal and then 
people will not come anymore.
    The Great Smoky Mountains National Park just celebrated its 
75th this year. My family comes from the park. We were kicked 
out of the park. We were kicked out.
    I know that Senator Burr probably has friends that have 
family that were kicked out of the park on the North Carolina 
side. When we left, we were not happy campers, truly. Literally 
we were kicked out and the Federal Government has taken over.
    We have gotten over it. We love what has happened with the 
parks. We love what the Federal Government has done with it 
now, but we also feel that it is incumbent upon the Federal 
Government to work with us in partnership to create new 
strategies, new policies to address what we have always wanted 
to do, which is to keep our cultural heritage traditions and 
our precious natural resources and that is all we are asking.
    Senator Udall. Thank you for sharing that understanding and 
your experiences with us. I marvel at your family's history.
    Since I spent so much time encouraging you to talk about 
the Great Smokies, I hope Senator Burr will get somebody else 
on the panel to talk about Rocky Mountain National Park so I 
can make myself whole with my constituents back in Colorado 
because we are proud of our parks.
    Dr. Williams, in the time I have got remaining--and I think 
we may well do a second round--I wanted to follow up on your 
statement about streams becoming uninhabitable for native trout 
because the water temperatures are very important to trout 
health. Are you of the mind that sportsmen and sportswomen are 
aware of the impacts to trout streams in parks and how those 
changes could affect recreational opportunities? How do you see 
the Park Service engaging this constituency to help educate the 
general public?
    Mr. Williams. Thank you. The first part of your question--I 
think the answer is there is a growing awareness from hunters 
and anglers across this country. The Wildlife Management 
Institute, in cooperation with about eight other major national 
conservation organizations, Ducks Unlimited, Trout Unlimited, 
that type, edited and produced a book called Seasons' End which 
deals with the challenges of climate change. That was an 
attempt to help inform and educate hunters and anglers across 
this country who, I would say, about 4 or 5 years ago probably 
really were not engaged in this issue. Not only that book, but 
those major conservation organizations produce--almost all of 
them produce monthly magazines and have covered this topic. So 
that awareness is growing. I do not think there is any question 
about it.
    We have been involved in some polling of hunters and 
anglers, national polls. It ranks up there as a concern. The 
other concerns are the economy, energy, and so on that 
supersede that. But I think those polls are very important. In 
the most recent one we did, if I could characterize, one of the 
responses was we know that climate change is an issue and we 
think that steps should be taken now to address it rather than 
wait because it will cost less to deal with it now than it will 
if we wait 10-15 years. So hunters and anglers are aware and 
that concern is growing.
    The Park Service provides--again, as I guess two of the 
panelists here talked about--tremendous fishing opportunities 
across the country, in particular--well, I will talk about 
Rocky Mountain National Park. There is tremendous fishing 
there. It is a place that all us easterners dream about and 
eventually hopefully get a chance to go fish some of those 
wonderful areas.
    But I have got to go back to the Great Smoky Mountains. In 
Seasons' End, in that book, the chapter that dealt with cold 
water fisheries, trout fisheries, the experts, the fisheries 
biologists that work those areas and those Appalachian streams 
have made some pretty dire predictions about what might happen 
to the native trout species, particularly brook trout, in those 
streams because of warming temperatures in streams and the 
change in stream flow as a function of change in snowmelt and 
snowpack.
    Senator Udall. Thank you.
    Senator Burr.
    Senator Burr. Dr. Williams, let me assure you the brook 
trout are still alive and well. I caught one not long ago.
    Mr. Williams. Very good.
    Senator Burr. Just outside the borders of the Great 
Smokies.
    Mayor, let me welcome you.
    Mr. McMahan. Thank you.
    Senator Burr. I feel like I have a direct tie to you. If it 
had not been for North Carolina giving Tennessee that land, you 
would not have Tennessee.
    Mr. McMahan. Yes, sir. I appreciate that direct tie.
    Senator Burr. But we thank you for sharing the park with 
us, and it is my hope you will not have to buy hay this year 
based upon how much rain we have had.
    Mr. McMahan. No, sir. I have had three cuttings already. I 
think we are fine.
    Senator Burr. A lot of things have changed.
    Let me ask you.
    Mr. McMahan. Yes, sir.
    Senator Burr. If, for some reason in an attempt to try to 
address human effects on climate, the Park Service came out 
tomorrow and said we are banning automobiles from the Great 
Smoky Mountains National Park, what would that do to the 10 
million visitors we have?
    Mr. McMahan. If they just out and banned it right now? It 
would be decimating to visitation.
    Senator Burr. There are some things that we might both look 
at and say this could have a marginal impact on climate change, 
but from a standpoint of what the parks are there for, this is 
not the right direction for us to go. Do you agree?
    Mr. McMahan. Absolutely. Yes, sir.
    Senator Burr. Dr. Noss, I am going to give you an 
opportunity to give me the words to sell coastal residents in 
North Carolina who have lived when they saw most of the Outer 
Banks covered in water, only to now be pretty heavily developed 
in some areas and in other areas, a protected national park 
with some controversy on usage right now. But how can you lead 
me on how I convey to them that they are in jeopardy of those 
at some point being under water, the result of climate change 
versus their historical knowledge of cyclical changes?
    Mr. Noss. I understand your question, and I would have a 
hard time explaining to them too except for to just point to 
the bigger picture. I think this is a classic example of the 
limitations, not the wrongness but simply the limitations, of 
taking a purely local view because if you take a little broader 
view, these barrier islands move around. They come and go, 
whereas some of yours have grown, there have been other barrier 
islands that have disappeared completely or moved considerably 
over the same span of time.
    Senator Burr. Not the result of climate change.
    Mr. Noss. Yes, as a result of sea level rise just recently. 
I will point to increasing storm surge from hurricanes. I will 
point you to a book from a couple folks in your----
    Senator Burr. Are hurricanes the result of climate change?
    Mr. Noss. Yes. The increasing sea surface temperature is 
now accepted as the major factor for the increasing intensity 
of hurricanes, which means storm surge.
    Senator Burr. If progressively this gets worse every year, 
progressively--I mean, this is not something that skips a year 
or skips a decade as far as the impact of climate change.
    Mr. Noss. Oh, no. It can skip years and decades.
    Senator Burr. So this year's low experience of hurricanes 
is a skip. It's an aberration in the trend?
    Mr. Noss. We are in an El Nino year and during El Nino 
years, the intensity and the frequency of Atlantic hurricanes 
is reduced. Next time we get into a La Nina, which is the 
opposite situation, we can expect that hurricanes will again 
come back with force. A lot of the hurricanes in 2003-2004 were 
both during relative La Nina periods. So that is a somewhat 
cyclic situation. But the general trend is toward increasing--
--
    Senator Burr. So let me see if I understand this. If we 
knew we were in that cycle, why would the guy out in Colorado 
and the national weather forecast not have said, you know, this 
is going to be a year we are not going to have many hurricanes. 
They actually projected this year we were going to have more 
than we did last year.
    Mr. Noss. Because very interestingly, the cycle is 
changing. We are getting to shorter periods of time between El 
Nino events, in particular, and increasing intensity----
    Senator Burr. But, Dr. Noss, this is like me watching the 
news last night, because I had an honor flight of 100 veterans 
coming up today, and when I saw the forecast for today, I 
called 10 people in my office and made sure they were going to 
be at the World War II Memorial this morning with umbrellas 
based upon what they forecast last night, only to get to the 
World War II Memorial this morning and the sun was out.
    So I guess my point is if we are relying on science to 
drive this massive change in our policy at the parks and 
potentially the public investment and we cannot, 6 months out, 
look at say, well, you know, this is a La Nina year or--what 
was the other one?
    Mr. Noss. El Nino and La Nina.
    Senator Burr. Whichever one produces less, why could we not 
project that 6 months ago when the hurricane forecasters looked 
at it and said, well, this is a La Nina year, so we are not 
going to have many?
    Mr. Noss. As counter-intuitive as it seems, long-term 
trends in climate are actually more reliable and many times 
easier to predict than weather day to day, and the same thing 
with these El Nino and La Nina years. It was not predicted that 
the cycle would shorten and the intensity of both the El Nino 
and the La Nina would increase, but it is something that 
happened. Some people had predicted that, but it was not 
generally accepted until quite recently.
    Senator Burr. I read your testimony and I was just struck 
by one thing, if I could read it.
    Mr. Noss. Sure.
    Senator Burr. ``Most projections now show the sea rising by 
at least 1 meter by the year 2100. This is the level currently 
estimated by the U.S. Climate Change Science Program. However, 
many recent projections are higher. For example, the State of 
California has now assumed 1.4 meters by 2100 in its planning, 
and some studies suggest that a rise to 1 meter or more above 
current levels could happen significantly sooner than 2100.'' 
Then you made the statement verbally: It is improbable it will 
be slower or less.
    So let me just ask you. Is there any scientific data that 
suggests it is going to be slower or less?
    Mr. Noss. There are certainly some scientists that claim 
that, and we have had an odd situation globally over the last 
10 years, what appears to be odd, in that climate has been 
relatively stable in terms of temperature for the last 10 
years. But if you look at the bigger picture, this is not 
unexpected. You have climate, in terms of global temperature, 
for example, going up, stabilizing for a while, going up again, 
stabilizing for a while, and in the big scheme of things, it is 
going to drop over thousands of years.
    So the trend is definitely upwards, and there is a lag 
time. The sea surface temperature and sea temperatures 
generally have continued to increase markedly over this last 10 
years even though air temperature has been stable. So last July 
was the highest sea surface temperature average worldwide ever 
recorded in the history of humans taking measurements of sea 
surface temperature. We do know that there is a strong 
connection now between the intensity of hurricanes and sea 
surface temperature. It is still controversial whether we are 
going to have more hurricanes as a result of this.
    Senator Burr. How long have we kept data on sea 
temperatures?
    Mr. Noss. At least a couple centuries.
    Senator Burr. Globally?
    Mr. Noss. I would have to look and see exactly how many 
points. We take measurements in many more points now, but there 
have been people measuring ocean temperatures for a long time.
    Senator Burr. You suggest that some of what we have been 
through is cyclical. We are going to go through this and then 
the temperature is going to come back down.
    Mr. Noss. Over the big span of time, absolutely. We have 
been through this before.
    Senator Burr. It makes it even tougher for me then to 
understand the connection to carbon and some of the things that 
we are talking about doing if in fact this has happened before 
and those items did not contribute to it.
    Mr. Noss. They did. There were other factors that led to 
fluctuations in carbon dioxide content on a global scale, 
factors including volcanism, volcano activity, and lots of 
other things. But I am talking about on the scale of tens of 
thousands to millions of years. So, for example, the last time 
we had significantly higher sea levels was during the last 
interglacial period, a period between glaciers of the Ice Age, 
which was around 40,000 to 50,000 years ago. There was a recent 
study done. It showed that at that time, sea levels rose very 
rapidly, maybe as rapid or more so than we are even seeing now.
    Senator Burr. Was the United States geographically even in 
the location that it is today then?
    Mr. Noss. Yes, pretty much so actually. It is just that we 
were----
    Senator Burr. The tectonic plates had separated and we had 
all the----
    Mr. Noss. It has not changed much since then. It has not 
changed much for the last few million years.
    Now, the big difference between this episode of global 
warming and climate change in general and those of the past is 
that species could move in response to climate change in the 
past because there were not all these barriers in the way. 
There were not cities. There were not big agricultural fields. 
There were not highways.
    Senator Burr. I think Dr. Williams got into that very well, 
that this is as much a challenge about the growth of 
population.
    Mr. Noss. Absolutely.
    Senator Burr. Listen, I want to thank all of you. I hope 
that the proposals that come out of the Park Service are 
reasonable and rational and achievable and effective. I hope 
if, in fact, we think that a policy like removal of automobiles 
or a cap on the population is something that ought to be 
policy, that we will sober up before we go out and publicly say 
that. But I am confident that from a standpoint of our Park 
Service, the investment in the policy, this is something we 
have to do in collaboration with the American people and, yes, 
with the mayors and the communities that surround those parks. 
If it is not beneficial, if it is not there for the purpose 
that we protected them--and that is for the public use--then I 
am not sure that the American people will buy into what the 
remediation might be.
    I thank all three of you.
    Senator Udall. Let me thank also, as we bring the hearing 
to a conclusion, the three witnesses. Your testimony has been 
enlightening and enjoyable.
    I would add my thoughts, as we conclude, that I do believe 
we cannot afford to not respond. As Dr. Williams suggested, if 
we do not address it now, it will cost us a much greater price 
later on.
    The record will remain open for 2 weeks.
    Again, thank you for your testimony here today.
    The hearing is now adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    [Responses to the following questions were not received at 
the time the hearing went to press:]

        Questions for Jonathan B. Jarvis From Senator Murkowski
                 buffer zones/park service jurisdiction
    Question 1. Recently, there have been a number of National Park 
Service endorsed situations which sought to increase NPS land or had 
the effect of creating buffer zones around existing National Park 
Service Units.
    It is important to note that the Park Service only manages land 
within the boundaries of the National Park Units, and is not provided 
with the jurisdiction to manage lands outside of those Units. What role 
should the National Park Service play in creating and mandating policy 
for lands surrounding National Park Units? If the Park Service plays a 
role in overseeing surrounding lands or resources, the NPS would have 
extremely far reaching jurisdiction, wouldn't you agree?
                     other land management agencies
    Question 2. Each land management agency and bureau has their own 
statutory mission statements and manages lands differently than the 
National Park Service. All of these agencies' missions apply within the 
borders of the land for which the difference agencies have 
jurisdiction, but not outside of those borders.
    Does the Park Service believe that its own Organic Act should allow 
it to pursue efforts that may be in contrast to efforts of other land 
management agencies?
    Question 3. The Secretary of the Interior has begun a Climate 
Change Initiative which, among other things established 
``cooperatives'' through which ``Interior bureaus and agencies must 
work together, and with other federal, state, tribal and local 
governments, and private landowner partners, to develop landscape-level 
strategies for understanding and responding to climate change 
impacts.''
    What is the Park Service's role in these cooperatives, and the 
Climate Change Initiative in general? Are there, and will there 
continue to be, differences between different land management agencies 
on how Climate Change should be approached within their respective 
jurisdictions? To what extent will the Park Service influence 
activities outside of its jurisdiction?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

           National Parks Conservation Association,
                              Clean Air & Climate Programs,
                                  Washington, DC, October 28, 2009.
Hon. Mark Udall,
Chairman, Subcommittee on National Parks, Senate Energy and Natural 
        Resources Committee, Dirksen Senate Office Building, Room 304, 
        1st and C Streets, NE, Washington, DC.
    Dear Chairman Udall,
    Please accept the following testimony and attached reports on 
behalf of the National Parks Conservation Association (NPCA) in 
connection with the hearing by the Subcommittee on National Parks to 
receive testimony on the current and expected impacts of climate change 
on units of the National Park System.
    Founded in 1919, NPCA works to protect, preserve, and enhance 
America's National Park System for present and future generations. 
Today, we have 24 regional and field offices across the country, from 
southern Florida to Alaska, and more than 330,000 members, who care 
deeply about the wildlife and ecosystems our parks preserve, and want 
to see these unique American treasures passed on to our children and 
grandchildren undiminished.
  climate change will have serious long-term impacts on our national 
                                 parks
    The effects of climate change have been visible for years in our 
national parks. Glaciers are disappearing faster than scientists had 
predicted even a few years ago. Native trees and animals are losing 
ground because changing temperature and weather patterns are making the 
availability of food, water, and shelter less certain. Fish and 
wildlife are being driven from their national park homes by changes 
that are unfolding faster than the animals' ability to adapt.
    America's national parks are showing the signs of climate change. 
From Yosemite's forests in California to the Gulf Stream waters of the 
Florida coast, from the top of the Rocky Mountains to the shores of the 
Chesapeake Bay, these lands and the incredible diversity of life they 
support are all feeling the heat. Climate change is here and now, 
affecting the coral reefs in Florida at Biscayne National Park, 
lodgepole pines in Rocky Mountain National Park and animals that rely 
on snow in Yellowstone National Park.
    NPCA is submitting for the record our 2009 report, Climate Change & 
National Park Wildlife: A Survival Guide for a Warming World, which 
details the climate change impacts on wildlife in dozens of national 
parks throughout the country. An electronic version is available at 
www.npca.org/survivalguide. We are also submitting for the record our 
2007 report, Unnatural Disaster: Global Warming and Our National Parks, 
which details climate change impacts on national parks throughout the 
country. An electronic version is available at www.npca.org/
globalwarming.
    As detailed in NPCA's reports, national parks, including their 
roads and buildings as well as their natural, historical, and cultural 
resources, are highly vulnerable to climate change impacts already 
unfolding across their landscapes. Following are some of the key 
findings of our reports with regard to climate change impacts on the 
national parks:

                                  GLOBAL WARMING IMPACTS ON OUR NATIONAL PARKS
----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
                                                                         ALASKA
----------------------------------------------------------------------------------------------------------------
AK                                      Katmai                               Ocean warming may affect salmon
                                                                              fisheries and scientists are
                                                                              exploring possible links between
                                                                              warmer river temperatures and
                                                                              increased parasites in salmon.
----------------------------------------------------------------------------------------------------------------
AK                                      Wrangell-St. Elias                   Thawing permafrost will damage
                                                                              infrastructure and reduce the size
                                                                              and location of ponds on which
                                                                              waterfowl depend.
----------------------------------------------------------------------------------------------------------------
                                                                 PACIFIC COAST MOUNTAINS
----------------------------------------------------------------------------------------------------------------
WA                                      North Cascades                       Seventy to 90 percent of the snow
                                                                              pack could disappear by the end of
                                                                              this century, threatening winter
                                                                              sports and water supplies.
----------------------------------------------------------------------------------------------------------------
WA                                      Olympic Mount Rainier NP             Warmer winters and more extreme
                                                                              precipitation events could
                                                                              increase winter flood risk; An
                                                                              increase in stream water
                                                                              temperature and shallower stream
                                                                              will cause the decline of suitable
                                                                              salmon habitat.
----------------------------------------------------------------------------------------------------------------
OR                                      Lewis and Clark                      Earlier snowmelts and spring
                                                                              flooding can decimate already-
                                                                              stressed salmon populations.
----------------------------------------------------------------------------------------------------------------
CA                                      Yosemite National Park Sequoia       The yellow-legged frog is
                                         National Park Kings Canyon           threatened by disappearing ponds
                                         National Park                        caused by increased evaporation
                                                                              and by the lack of water
                                                                              replenishment from higher altitude
                                                                              sources; Warming and drought have
                                                                              made wildfire 3 season longer and
                                                                              more damaging, and increased
                                                                              insect damage; Warmer temperatures
                                                                              will worsen ground-level ozone
                                                                              problems; Increasing wildfires
                                                                              will contribute more smoke and
                                                                              airborne particulates.
----------------------------------------------------------------------------------------------------------------
                                                                     ROCKY MOUNTAINS
----------------------------------------------------------------------------------------------------------------
MT                                      Glacier                              The sculpted peaks, magical hanging
                                                                              valleys, azure lakes are all here
                                                                              because of the glaciers. By 2030,
                                                                              the glaciers will be gone and they
                                                                              will take a part of the Park with
                                                                              them; Wolverines could decline as
                                                                              snowfields they depend on for dens
                                                                              disappear and carrion from winter-
                                                                              killed animals becomes less
                                                                              available.
----------------------------------------------------------------------------------------------------------------
WY-MT-ID                                Yellowstone                          Recent warmer winters have led to
                                                                              burgeoning Whitebark pine insect
                                                                              infestations killing thousands of
                                                                              trees and dramatically decreasing
                                                                              the availability of the pine nut,
                                                                              a critical fall food source for
                                                                              grizzly bears.
----------------------------------------------------------------------------------------------------------------
CO                                      Rocky Mountain                       Rising temperatures and diminishing
                                                                              snow pack are allowing trees to
                                                                              take over high elevation alpine
                                                                              tundra putting animal species that
                                                                              have adapted to this ecosystem at
                                                                              great risk.
----------------------------------------------------------------------------------------------------------------
                                                                        SOUTHWEST
----------------------------------------------------------------------------------------------------------------
UT                                      Canyonlands Arches Capitol Reef      Bighorn sheep are threatened by an
                                                                              increasing scarcity of its food
                                                                              caused by changes in precipitation
                                                                              patterns.
----------------------------------------------------------------------------------------------------------------
AZ                                      Saguaro                              Higher temperatures are allowing
                                                                              invasive grasses to displace
                                                                              native plants, and these grasses
                                                                              fuel wildfires, which used to be
                                                                              rare in this ecosystem.
----------------------------------------------------------------------------------------------------------------
TX                                      Big Bend                             The Rio Grande is forecasted to
                                                                              narrow and dry up in places,
                                                                              encouraging invasive plant growth
                                                                              and affecting wildlife. CA JOSHUA
                                                                              TREE More than 90% of Joshua trees
                                                                              in the park could be wiped out
                                                                              within a century.
----------------------------------------------------------------------------------------------------------------
                                                                       GREAT LAKES
----------------------------------------------------------------------------------------------------------------
MI                                      Isle Royale                          Wolf and Moose populations are
                                                                              declining at a rapid rate due to
                                                                              unusually warm summers, directly
                                                                              threatening their symbiotic
                                                                              relationship.
----------------------------------------------------------------------------------------------------------------
WI                                      Apostle Islands                      With the water level in Lake
                                                                              Superior decreasing, recreational
                                                                              infrastructure must be redesigned
                                                                              and replaced in order to maintain
                                                                              the visitors' enjoyment of the
                                                                              park and safety.
----------------------------------------------------------------------------------------------------------------
MI                                      Sleeping Bear Dunes                  Climate change will exacerbate
                                                                              existing stresses on waterfowl,
                                                                              shorebirds, and migratory birds,
                                                                              such as water pollution and non-
                                                                              native species.
----------------------------------------------------------------------------------------------------------------
IN                                      Indiana Dunes                        This park ranks third of all U.S.
                                                                              national parks in plant diversity,
                                                                              but the diversity of aquatic and
                                                                              land-based flora will decline
                                                                              significantly.
----------------------------------------------------------------------------------------------------------------
                                                                        NORTHEAST
----------------------------------------------------------------------------------------------------------------
ME MA NY                                Acadia Cape Cod Fire Island          Climate change is diminishing the
                                                                              availability of nesting habitats
                                                                              for red knots and other shorebirds
                                                                              that annually migrate along the
                                                                              Atlantic Flyway.
----------------------------------------------------------------------------------------------------------------
ME                                      Acadia                               Rising seas may permanently
                                                                              submerge the park's islands, while
                                                                              warmer summers will result in
                                                                              increased evapotranspiration
                                                                              rates, which could destroy the
                                                                              park's many wetland ecosystems.
----------------------------------------------------------------------------------------------------------------
MA                                      Cape Cod                             Much of the Cape's rich mosaic of
                                                                              marine, estuarine, fresh water,
                                                                              and terrestrial ecosystems,
                                                                              already damaged by rapid sea level
                                                                              rise over the last decade, could
                                                                              be completely lost to future
                                                                              generations as submersion and
                                                                              erosion claims ever more of this
                                                                              low-lying park.
----------------------------------------------------------------------------------------------------------------
NY                                      Fire Island                          Sea-level rise will increase
                                                                              shoreline erosion, saltwater
                                                                              intrusion into groundwater
                                                                              aquifers, and drown out endangered
                                                                              native species, while increased
                                                                              storms threaten historical and
                                                                              cultural treasures.
----------------------------------------------------------------------------------------------------------------
NY                                      Ellis Island                         Immigration records that connect
                                                                              over 40 percent of Americans to
                                                                              our collective past would have to
                                                                              be removed from the park or risk
                                                                              destruction from rising seas.
----------------------------------------------------------------------------------------------------------------
ME-GA                                   Appalachian National Scenic Trail    More floods can lead to higher
                                                                              landslide risk, threatening
                                                                              portions of the high elevation
                                                                              trail, and communities that lie
                                                                              below.
----------------------------------------------------------------------------------------------------------------
                                                                      MID-ATLANTIC
----------------------------------------------------------------------------------------------------------------
MD, VA                                  Chesapeake Bay                       Warmer water is likely to increase
                                                                              outbreaks of two dangerous oyster
                                                                              diseases.
----------------------------------------------------------------------------------------------------------------
VA                                      Historic Jamestown                   Jamestown celebrated its 400th
                                                                              anniversary in 2007, but much of
                                                                              the park could be under water
                                                                              before its 500th anniversary.
----------------------------------------------------------------------------------------------------------------
VA                                      Shenandoah                           More droughts, floods, and warmer
                                                                              streams can diminish native trout
                                                                              populations.
----------------------------------------------------------------------------------------------------------------
VA, NC                                  Blue Ridge Parkway                   Warmer summers can produce more
                                                                              ozone 5 NC pollution and more
                                                                              ``code red'' air quality days,
                                                                              increasing health risks for
                                                                              visitors.
----------------------------------------------------------------------------------------------------------------
                                                                        SOUTHEAST
----------------------------------------------------------------------------------------------------------------
TN, NC                                  Great Smoky Mountains                Rare and ancient forests may be
                                                                              threatened by increasing ground-
                                                                              level ozone and insect pests
                                                                              unleashed by warming; the park is
                                                                              expected to lose most of its
                                                                              populations of red squirrel,
                                                                              northern flying squirrel, and
                                                                              southern red-back vole.
----------------------------------------------------------------------------------------------------------------
NC, SC, GA, FL, MS                      Wright Brothers National Monument    Sea level rise, increasing storm
                                         Fort Sumter Fort Pulaski Gulf        strength, and flooding threaten
                                         Islands National Seashore            low-lying historic areas and
                                                                              historical structures that tell
                                                                              the story of our nation from its
                                                                              earliest days.
----------------------------------------------------------------------------------------------------------------
FL                                      Everglades                           More powerful hurricanes combined
                                                                              with sea level rise could destroy
                                                                              park buildings and roads,
                                                                              increasingly cutting-off visitor
                                                                              access.
----------------------------------------------------------------------------------------------------------------
VI                                      Virgin Islands NP                    Warming ocean temperatures and
                                                                              disease may be the primary
                                                                              contributing factors to the
                                                                              decline of coral reef habitats.
----------------------------------------------------------------------------------------------------------------
FL                                      Biscayne Bay Dry Tortugas            Rising, warming and acidifying seas
                                                                              threaten coral reefs and sport
                                                                              fishing. Toxic or unusual algal
                                                                              blooms may threaten wildlife and
                                                                              tourism.
----------------------------------------------------------------------------------------------------------------

    These impacts degrade not only the parks and their wildlife, but 
also are beginning to have a significant impact on the National Park 
Service's budget. Just one result of climate change--increased seasonal 
flooding in the pacific west--underscores the seriousness of the 
challenge.
    Because winter temperatures in coastal Pacific mountains hover 
close to freezing, the few degrees rise predicted for this region will 
cause more and more precipitation to fall as rain rather than snow. 
Predicted increases in extreme winter precipitation with expected 
shifts toward rain rather than snow could greatly increase the 
likelihood of flooding. In North Cascades National Park, the three 
worst floods in park history have occurred in the fall when rain fell 
on snow that already had accumulated in the mountains. In November 
2006, Mount Rainier National Park suffered the most damaging flood in 
its 108-year history when nearly 18 inches of rain fell in just 36 
hours. The flooding broke the main utility lines, destroyed large 
sections of roads, trails, and campgrounds, and filled reservoirs with 
mud and debris. The major year-round road through the park was closed 
for six months, and a major north-south road was closed for over a 
year. Rebuilding cost to date has exceeded $40 million.
    The National Park Service desperately needs a plan to protect 
America's assets from climate change. Equally importantly, NPS needs 
the resources commensurate with the enormity of the challenge.
      national parks can be part of the solution to climate change
    What's happening in the parks is symptomatic of changes unfolding 
across the larger landscapes to which they are inseparably connected, 
the same landscapes that contain our communities. Changes that harm 
wildlife--depriving them of food, water, or shelter--will ultimately 
harm us. Given the iconic importance of parks, and that they protect 
core ecoregions of this country, working to safeguard parks and their 
wildlife from climate change should be a central strategy in 
safeguarding our nation from climate change.
    Solutions are neither simple nor quick and easy. It will take 
decisive action on the part of our federal government and all of us to 
meet the challenge and keep our faith with future generations. To avoid 
the potentially catastrophic loss of animal and plant life, it is 
imperative that we wean ourselves from energy sources like coal and oil 
that are accelerating rising temperatures and causing unnatural climate 
change. It is equally imperative that we pursue new strategies to 
preserve functioning ecosystems and the full diversity of life they 
support.
    National parks can play an important role in these strategies, 
preserving healthy ecosystems and their wildlife, in part by helping 
them to adapt to new climatic conditions. But some challenges must be 
addressed before the parks can fully step into this role. Right now, no 
national plan exists to manage wildlife throughout their habitat, which 
often is a patchwork of lands managed by multiple federal agencies, 
states, tribes, municipalities, and private landholders. Wildlife need 
corridors that enable them to migrate between protected lands as 
climate change renders their current homes inhospitable. We also need 
to work harder to reduce air and water pollution that compound climate 
change stresses on wildlife. All of these elements must be put in place 
as soon as possible to safeguard all living communities.
    We must act now to secure America's natural legacy before it is 
lost to our children and grandchildren. The National Park System can 
play a central role in restoring and preserving the healthy ecosystems 
necessary for wildlife--and indeed ourselves--to thrive.
 five key actions are needed to safeguard national parks from climate 
                                 change
    The choice is now ours to either chronicle the decline of our 
national parks or take actions to make our national parks part of the 
climate change solution. If we fail to act, many species of fish and 
wildlife could disappear from the parks--or even become extinct.
    That we must reduce global warming pollution to protect our natural 
world and human communities is now understood by many. But that is not 
all we must do. Unnatural climate change is already underway and will 
continue for decades even if we put a stop to all global warming 
pollution today.
    Additional steps must be taken now to safeguard wildlife. We must 
protect the places that will help wildlife survive as the climate 
changes, manage wildlife anticipating the changes ahead, and improve 
the ecological health of the national parks and their surrounding 
landscapes to give fish and wildlife a fighting chance to survive 
unnatural climate change.
    NPCA advocates five steps that, taken together, will help safeguard 
fish and wildlife, their homes, and our communities, from climate 
change. Here's what needs to be done:

          1. Stop contributing to climate change.--Many wildlife 
        species are struggling to cope with climate changes already 
        underway. Some will not be able to endure much more change, and 
        could disappear from national parks and even go extinct if 
        climate change is unchecked. We must limit its effects by 
        rapidly reducing greenhouse gas emissions and switching to 
        less-polluting sources of energy.
          2. Reduce and eliminate existing harms that make wildlife 
        more vulnerable to climate change.--The damaging effects of 
        climate change are compounded by existing stresses on wildlife. 
        Air and water pollution, development of adjacent wild lands, 
        and other forces are harming national park wildlife now, and 
        adding climate change to the mix could be disastrous. By 
        reducing and eliminating these environmental harms we can 
        significantly decrease the vulnerability of plants, fish, and 
        wildlife to climate change as well as produce rapid and 
        tangible benefits--such as clean air and water--that both 
        people and wildlife need to thrive.
          3. Give wildlife freedom to roam.--Climate change will cause 
        some wildlife to move outside the parks' protected boundaries, 
        while other species may move in. Because national parks, like 
        all protected areas, are interconnected with surrounding 
        landscapes, cooperation and coordination among all land 
        owners--public and private--is essential to preserve 
        functioning ecosystems and the wildlife they support. National 
        parks can play a key role in conserving wildlife across the 
        landscape. In some cases they provide natural corridors; in 
        other cases new corridors will be needed to connect parks and 
        other protected lands so that wildlife can move in response to 
        climate change.
          4. Adopt ``climate smart'' management practices.--As one of 
        the nation's premiere land managing agencies the National Park 
        Service needs working models and sufficient resources to 
        preserve biological diversity and ecosystem functions 
        threatened by climate change. Familiar and emerging concepts 
        like habitat restoration, connective corridors, facilitated 
        migration, elimination of compounding stressors, scenario 
        modeling, mobile conservation areas, and genetic diversity, 
        must be woven together into a coherent, workable, and 
        replicable model. America's national parks are poised to assist 
        in developing that model, but they currently lack sufficient 
        funding and management capacity needed to formulate, implement, 
        and market an ecosystem-wide ``climate smart'' adaptation 
        model.
            Climate-smart management includes four key elements:

                  (1) Training national park managers to build climate 
                change into their work,
                  (2) Establishing guidance and policies that enable 
                park staff to work closely and equally with other 
                federal, state, local and private landowners,
                  (3) Providing sufficient funding and staffing for the 
                challenge at hand, and
                  (4) Creating a political and organizational setting 
                that facilitates appropriate, timely, and collaborative 
                action.

            While research and monitoring should be a part of any 
        park's approach to climate-smart management, real focus needs 
        to be placed on implementing management changes now based on 
        what we already know.
            National Parks are the ideal laboratories to develop and 
        deploy new conservation strategies for combating the effects of 
        climate change. They are the symbols of America, beloved by 
        millions of our own citizens, and admired as a model throughout 
        the world. They are home to some of the best science and 
        innovative thinking on climate change and ecosystem management. 
        And they enjoy strong support across the political spectrum, a 
        dynamic that has helped parks achieve the highest level of 
        ecosystem protection among public lands.
            With its strong political support and scientific 
        information, the National Park System can be empowered to lead 
        the way in preserving the maximum degree of biological 
        diversity and ecosystem function in the coming changing 
        climates.
          5. National parks lead by example.--With more than 270 
        million annual visitors, a core education mission, and a 
        tradition of scientific leadership, national parks have an 
        unparalleled ability to engage Americans in the fight against 
        climate change. National parks can help visitors understand 
        climate change is already occurring, the vulnerabilities of 
        tomorrow, and how we can all reduce our contribution to global 
        warming.
            National parks can also serve as natural laboratories for 
        testing innovative ways to safeguard wildlife from the effects 
        of climate change, and to reduce greenhouse gases that are 
        causing climate change.
 climate legislation currently before congress can help safeguard the 
                             national parks
    As the Subcommittee on National Parks continues to examine polices 
to safeguard national parks from climate change, there is an immediate 
opportunity to secure critical protections for parks and all natural 
resources through climate change legislation now under consideration in 
both the Environment and Public Works and Energy and Natural Resources 
Committees. NPCA supports the Clean Energy Jobs and American Power Act, 
co-sponsored by Senators Boxer and Kerry, as well as legislation 
recently introduced by Senators Bingaman, Baucus, Whitehouse, and T. 
Udall, the Natural Resources Climate Adaptation Act, which establishes 
a comprehensive system for safeguarding America's vital natural 
resources from climate change.
      by safeguarding national parks we help secure our own future
    National parks are America's national treasures. It is a uniquely 
American idea that each of us owns our national parks. They have been 
entrusted to us, and it is our responsibility to make sure that climate 
change does not rob the parks of their incredibly rich array of plants, 
fish, reptiles, birds, and mammals.
    Wildlife is threatened now as perhaps never before. The 
Intergovernmental Panel on Climate Change warns that up to a quarter of 
assessed species could face extinction due to global warming by the end 
of this century. It's difficult to imagine that the changes leading to 
mass wildlife extinctions would not also profoundly threaten human 
life.
    Decisive action now can help bring about a more hopeful future for 
wildlife and for ourselves. Taking the five steps recommended here will 
help safeguard national park wildlife by preserving and strengthening 
the ecosystems that support all wildlife. In turn our communities, 
which have always relied on healthy natural resources, will be better 
equipped to cope with the changes ahead.
    Thank you for considering NPCA's views on the important issue of 
safeguarding our national parks from climate change impacts.
            Sincerely,
                                              Mark Wenzler,
                                                          Director.

                                    

      

</pre></body></html>
